       OFFICE OF INSPECTOR GENERAL
U.S.   GENERAL SERVICES ADMINISTRATION




                                     55
APRIL    1, 1998 .. SEPTEMBER 30, 1998
             Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as amended,
summarizes the activities of the Office of Inspector General (OIG) for the 6-month
reporting period that ended September 30, 1998.

 During this period, the OIG worked closely with GSA management to identify sound
 business management and operational improvements andfind ways to increase the
 efficiency and effectiveness of the Agency s programs. We continued with our
 initiatives to offer non-traditional audit services such as consulting and advisory
 reviews and other value-added services. For example, we noted that a GSA credit
 card contractor s electronic points of sale controls were adequate to deter significant
fraudulent credit card usage. A Iso, we reported that contracting personnel activities
 could be improved in the areas of authorized spending levels, and required reviews
 and approvals over procurements. We also determined that inaccuracies exist in the
 inventory of congressional office fitrniture and suggested ways to improve program
 oversight.

 We also provided our traditional services to protect the integrity of GSA programs.
 We reviewed the Agency s effort to enhance Federal buildings' security and made rec-
ommendations directed at improving overall security program accountability, espe-
cially in countermeasure and funding controls. We recommended actions to improve
 GSA s information technology security for various critical systems linked to both the
Internet and GSA s Intranet. Furthermore, we reviewed the on-line shopping system,
for which the Agency has won several award~; highlighted the strengths and weak-
nesses of GSA s new rent pricing strategy; and determined that the travel manage-
ment center program sforecasted revenues will not be sufficient to cover projected
costs of operations.

We identified over $287 million in financial recommendations on how funds could be
put to better use and in other program savings. Also, we made 157 referrals for
criminal prosecution, civil litigation, and administrative action. Criminal cases
originatingfrom OIG referrals resulted in 12 successful prosecutions. The DIG also
received 1,473 Hotline calls and letters. Savings achievedfrom management
decisions on audit financial recommendations, civil settlements, and investigative
recoveries totaled over $44 million.

I want to take this opportunity to thank the GSA Administrator, GSA s senior
managers, and the Congress for their support. I also want to commend the
accomplishments of all OIG employees during this periodfor their continued
professionalism, dedication, and willingness to accept new challenges.




WILLIAM R. BARTON
Inspector General

October 31, 1998
    Table of Contents




                                                                       Page

Summary ofOJG Performance ..................................... v

Piscal Year 1998 Results ......................................... vi

Executive Summary ............................................ vii

OIG Profile ................................................... 1

Reviews of GSA Programs ........................................ 2

Procurement Activities .......................................... 15

Partncring with GSA Management ................................. 20

Prevention Activities .......................................... .23

Review of Legislation and Regulations ............................. 25

Statistical Summary of OIG Accomplishments ....................... .27

Appendices

Appendix I - Significant Audits from Prior Reports .................... 35

Appendix II - Audit Report Register. . ............................. .38

Appendix III - Audit Reports over 12 Months Old with Final
 Action Pending .............................................. 50

Appendix IV - Delinquent Debts ................................... 56

Appendix V - Reporting Requirements .............................. 57




                                                    Office of Inspector General iii
                      Summary of OIG Performance




DIG Accomplishments     April 1, 1998 - September 30, 1998

                        Total financial recommendations                                   $287,469,747

                        These include:

                        • Recommendations that funds be put to better use                 $274,294,641

                        • Questioned costs                                                 $13,175,106

                        Audit reports issued                                                   126

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                                  157

Results Attained        Management decisions agreeing with audit
                        recommendations, civil settlements, and
                        court-ordered and investigative recoveries                        $44,243,271

                        Indictments and informations on criminal referrals                      3

                        Cases accepted for criminal prosecution                                 9

                        Cases accepted for civil action                                         3

                        Successful criminal prosecutions                                        12

                        Civil settlements                                                       4

                        Contractors suspended/debarred                                          36

                        Employee actions taken on administrative
                        referrals involving GSA employees                                       6




                                                                             Office of Inspector General v
                                       Fiscal Year 1998 Results




                                       During Fiscal Year (FY) 1998, OIG activities resulted in:

                                       • Over $320 million in recommendations that funds be put to better use and in
                                         questioned costs. If adopted, these recommendations ultimately result in savings
                                         for the taxpayer.

                                       • Management decisions to put funds of $55.8 million to bctter use based on OI G
                                         recommendations.

                                       • 233 audit reports that assisted management in making sound decisions regarding
                                         Agency operations.

                                       • 7 implementation reviews that tracked the progress of actions in response to
                                         intemal audit reports.

                                       • $34 million recovered as a result of management decisions to recover funds, civil
                                         settlements, court-ordered recoveries, and investigative recoveries.

                                       • 233 new investigations opened and 252 cases closed.

                                       • 21 case referrals (43 subjects) accepted for criminal prosecution and 11 case
                                         referrals (17 sUbjects) accepted for civil litigation.

                                          11 criminal indictments/informations and 19 successful prosecutions on criminal
                                          matters referred.

                                       • 8 civil settlements.

                                       • 33 referrals to other Federal agencies for further investigation.

                                          13 employee actions taken on administrative referrals involving GSA employees.

                                       • 24 contractor suspensions and 62 contractor debarments.

                                       • 475 legislative matters and 63 regulations and directives reviewed.

                                       • 2,857 Hotline calls and letters received of which 140 warranted further GSA
                                         action.




vi Semiannual Report to The Congress
                      Summary




During this period, we expanded our efforts to provide professional assistance
through enhanced consulting services and the usc of alert reports designed to quickly
inform management of potentially serious deficiencies or other concerns prior to
completion of all analytical work and formal report issuance. These services have
been added while we continuc to offer our more traditional serviccs, including
program evaluations, contract and financial auditing, management control reviews,
investigative coverage, and litigation support in contract claims, civil fraud and
enforcement actions, and criminal prosecutions.

Program/Operational Reviews

The OIG continued its efforts to conduct large-scale reviews of programs and
opcrations throughout GSA's various components. A major effort involved our
ongoing review of GSA's efforts to upgrade security at Federal facilities. We issued
one alett repolt and completed our report on the review of the security program. The
alert report disclosed that although many security upgrade countermeasures were
accomplished, many had not been documented in the otIicial project database. Also,
non-security work was procured with buildings security funds (page 2). An overall
program repOli of GSA's program for upgrading security at Federal buildings
revealed that GSA: lacked an overall management plan for accomplishing the
mission; needed to improve its control over the implementation and reporting status
of security countermeasures; and needed to improve control over the proper usc of
security upgrade funds (page 3).

In another program review in which we assessed the security measures of six major
Internet and Intranet Agency applications, we reported that GSA: should clearly
define information technology security roles and responsibilities, including defined
responsibilities for management; needed security plans that include both Internet and
Intranet operations; and should require plans to periodically review controls for these
systems (page 4).

The OIG also began an assessment of GSA's efforts to place four million items in
GSA Advantage!TM, a worldwide, on-line, electronic commerce shopping system.
However, as a result of encountering numerous technological complexities during
GSA's implementation process, the need for reliance on vendor input, and the need
for conformity in readable data, GSA decided to reevaluate the Advantage program.
To aid in this reevaluation, we recommended that the Agency, among other things,
develop a comprehcnsive pian which considers the design and development of thc
entire Advantage program and define tasks and timeframes for realistic completion of
project objectives (page 6).

In other program reviews, we reported on a wide range of GSA's programs and
operations. For example, we provided GSA with our observations regarding the
strengths and weaknesses of the new rent pricing strategy (page 7), and reported that
forecasted revenues were insufficient to cover projected costs to provide travel
services contracts to Federal customer agencies (page 8). Furthermore, we reviewed
the Agency's responsibilities resulting from receiving real estate from a quasi-
government development corporation. We found that GSA successfully resolved two
significant management and financial issues arising from the corporation's transfer of


                                                         Office of Inspector General vii
                                            Executive Summary




                                         assets, liabilities, and responsibilities to the Agency (page 9). At the request of the
                                         u.s. Senate Committee on Governmental Affairs, we evaluated complaints from
                                         minority-owned firms selling supplies to GSA. We did not identify any evidence of
                                         discriminatory practices, harassment, or ethnic bias as charged by the firms (page 9).

                                         We made recommendations to improve personnel management by improving controls
                                         over documentation of applications received for vacancy announcements (page 11).
                                         We also reviewed customer order shipment discrepancies, and recommended
                                         improvements to the database which would resolve these discrepancies (page 13).

                                         As part of our management controls review program, we reported that controls over
                                         Agency conference site selections and expenditures need to be strengthened
                                         (page 10); that the audit follow-up process is effective in tracking and closing audit
                                         action plans, but does not ensure that the actions taken remedy the conditions
                                         addressed in the recommendations (pagc 12); and that control improvements were
                                         needed to ensure that the Government received the mechanical and repair services
                                         provided by private contractors (page 16). In addition, our examination of simplified
                                         procurement operations in one region found that procurements were made in
                                         accordance with policy and guidance. However, controls pertaining to credit card
                                         purchases could be strengthened (page 18). Also, following a review of a field office
                                         we recommended procurement-control improvements to ensure that credit card users
                                         and approving officials are trained and reminded of their responsibilities, approving
                                         officials perform reviews over controls, and control-contract log and data system are
                                         updated (page 17).

                                         Procurement Integrity

                                         An important part of our work effort is to provide support to the Agency's
                                         contracting officers and to protect the integrity of GSA's procurement programs and
                                         operations by detecting and preventing fraud, waste, and abuse. This period, based
                                         on our audit and investigative work, several private sector contractors agreed to pay
                                         over $1.9 million to resolve potential civil liability under the False Claims Act
                                         (page 15). These contractors provided office systems furniture, office products, and
                                         information technology hardware. The settlements involved allegations that they had
                                         misreprcsented their commercial discount practices in seeking and performing under
                                         GSA contracts, in violation ofthe False Claims Aet and other statutory and
                                         contractual provisions.

                                         We also completed an investigation which resulted in a contractor employee pleading
                                         guilty to embezzlement and conversion of Government property. It was determined
                                         that the employee converted parking space revenue to his own personal use
                                         (page 17). Other investigations resulted in convictions involving theft of Government
                                         property and converting surplus property (pages 13-14).

                                         Consulting Services

                                         At the request of Agency management, we continued to provide our consulting
                                         services to cover a range of GSA activities cutting across all GSA components. We
                                         examined shipment confirmations to determine whether they are being entered into


viii Semiannual Report to The Congress
                      Summary




the information system (page 20); analyzed the policies, procedures, and practices of
a GSA credit card contractor (page 20); suggested techniques to make records more
accessible to various user entities (page 20); and determined that GSA could
potentially provide stock sale items to contractors (page 21). Furthermore, we
identified staffing needs, operating functions, levels of service, and costs for
operating the Federal Protective Service's control centers (page 21); evaluated
inventory records and suggested actions to improve program oversight (page 21); and
reviewed procurement and financial controls over certain projects to detelmine
whether they were adequate to protect the Government's interests (page 21). In
addition, we issued an advisory report concerning the Agency's efforts to implement
the Government Performance and Results Act (page 22).

Summary of Results

The OIG made over $287 million in financial recommendations to better use
Government funds, and in other program costs savings; made 157 refenals for
criminal prosecution, civil litigation, and administrative actions; reviewed
302 legislative and regulatory actions; and received 1,473 Hotline calls and letters.
This period, we achieved savings from management decisions on financial
recommendations, civil settlements, and investigative recoveries totaling over
$44 million. See page v for a summary of this period's performance.




                                                           Office of Inspector General ix
                                 DIG




                      The GSA OIG was established on October 1, J 978 as one of the original 12 OIGs
                      created by the Inspector General Act of 1978. The 01G'sjive components work
                      together to perform the missions mandated by the Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. It consists
                      of:

                      • The Office of Audits, an evaluative unit staffed with auditors and analysts who
                        provide comprehensive audit coverage of GSA operations through program
                        perforn1ance reviews, internal controls assessments, and financial and mandated
                        compl iance audits. It also conducts external reviews in support of GSA
                        contracting officials to ensure fair contract prices and adherence to contract terms
                        and conditions. To increase its ability to meet customer needs, the office has
                        added advisory and consulting services to its service offerings.

                      e   The Office of Investigations, an investigative unit that manages a nationwide
                          program to prevent and detect illegal and/or improper activities involving GSA
                          programs, operations, and personneL

                      .. The Office of Counsel to the Inspector General, an in-house legal staff that
                         provides legal advice and assistance to all OIG components, represents the OIG
                         in litigation arising out of or affecting OIG operations, and manages the OIG
                         legislative/regulatory review functions.

                      .. The Internal Evaluation Staff, an in-house staff that plans and directs field
                         office appraisals and conducts internal affairs reviews and investigations.

                      " The Office of Administration, an in-house staff that provides information
                        systems, budgetary, administrative, personnel, and communications services.

Office Locations      The OlG is headquartered in Washington, D.C., at GSA's Central Office building.
                      Field audit and investigations offices are maintained in Boston, New York,
                      Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San Francisco, and
                      Washington, D.C. Sub-offices are also maintained in Auburn, Cleveland, and Los
                      Angeles.

Staffing and Budget   As of September 30, 1998, our on-board strength was 293 employees.

                      The OIG's FY 1998 budget was approximately $33.8 million.




                                                                                Office ofInspector General 1
                                      Reviews of GSA Programs




                                        GSA is a central management agency that sets Federal policy in such areas as
                                       Federal procurement, real property management, and telecommunications. GSA also
                                       manages diversified Government operations involving buildings management, supply
                                       facilities, real and personal property disposal and sales, data processing, and motor
                                       vehicle and travel management. In addition, GSA manages 197 accounting funds
                                       and provides cross-servicing support for client agencies. Our audits examine the
                                       efficiency, effectiveness, and integrity of GSA programs and operations and result in
                                       reports to management. Our internal audits program is designed to facilitate
                                       management's evaluation and improvement of control systems by identifYing areas of
                                       vulnerability and providing iriformational and advisory services.

Significant OIG                        Security Enhancements in Federal Bui/dings
Accomplishments                        As an immediate response to the bombing of the Alfred P. Murrah Federal Office
                                       Building in Oklahoma City, GSA reprogrammed available operating funds to
                                       implement interim security measures and provide enhanced levels of security at
                                       facilities under its control. Following the recommendations in a Department of
                                       Justice report on the assessment of vulnerability of Federal facilities, GSA
                                       established Building Security Committees (Committees) as a formal mechanism for
                                       addressing security concerns at each facility. These Committees included
                                       representatives from all Federal agencies occupying a building. In conjunction with
                                       a Federal Protective Service (FPS) physical security specialist, each Committee
                                       prepared a facility evaluation that included recommended security upgrades, with
                                       justifications and cost estimates.

                                       In FY 1997, Congress authorized GSA to fund $240 million of Federal building secu-
                                       rityenhancements. About $140 million was for capital costs, and the balance was for
                                       operations. GSA allocated these funds to its regions based on specific Committee-
                                       requested countermeasures, as documented by each region in the Building Security
                                       Committee System (BSCS), which is the official database for tracking the status of
                                       each countermeasure. Therefore, if a countermeasure was recommended by a
                                       Committee, approved in the region, and input into the BSCS, the region received
                                       funding for the countermeasure from Central Office.

                                       In our last Semiannual Report to thc Congress, we highlighted the work we had
                                       either performed or had in process relative to GSA's program for upgrading security
                                       at Federal facilities. During our review of the program, we noted several items of
                                       significant concern that we felt warranted immediate reporting to management. OUf
                                       alert reports notified management that controls to ensure program implementation
                                       were ineffective, that the information system contained a large number of inaccurate
                                       data entries, and most importantly, that the actual implementation of enhanced
                                       security countermeasures was well short of what was being reported. This
                                       semiannual period, we issued one additional alert report and completcd our report on
                                       the review of the program.

                                       Undocumented Countermeasures and Database Inaccuracies

                                       In one region, we found that security upgrade countermeasures were accomplished,
                                       but many had not been documented in the official project database. Some



2 Semiannual Report to The Congress
                           Programs




countermeasure actions were initiated by the region, despite disapproval by FPS
headquarters. Regional officials had also procured non-security-related work with
buildings security funds. In addition, some security equipment identified as complete
and operational in the database was not found at the record location. This situation
occurrcd in part because the FPS regional oftice was otten excluded from the
decisions made by the regional Public Buildings Service officials concerning
countermeasure procurement and implementation. As a result, those officials lacked
sufficient expertise in interpreting and applying countermeasure criteria and did not
place sufficient emphasis on accurate reporting to the BSCS. In March 1998, FPS
Central Oftice, relying on an inaccurate database, approved supplemental funds for
the region, which far exceed its actual needs, at a time when program funds were
very limited. The region will most likely end up with a surplus rather than a shortage
of building security funds.

In our June 29, 1998 alert report to the Assistant Commissioner, Federal Protective
Service we advised the regional FPS officc and Central Officc to take immediate
action to ensure that countermeasures at all Federal buildings are accurately reported
and completed. We also suggested that Central Office address the non-security work
procured with buildings security funds and continue to closely scrutinize future
regional funding requests.

The Program Report

GSA's security enhancement program is a massive, unprecedented effort. At the time
we started our audit review, FPS's database contained planned installation of over
5,000 recommended countermeasures that were estimated to cost about $133 million.
These countermeasures affected thousands of Agency-controlled facilities
nationwide, and GSA and tenant employees. GSA was facing tremendous pressure
and ambitious timeframes to implement the additional security measures. Optimal
implementation of the program would have required planning and coordination
between Central Office and the regions. The regions were given responsibility for
accomplishing program implementation and delivery, while Central Office's critical
role was to ensure program consistency and the accomplishment of national goals
and objectives.

GSA did not establish a comprehensive management plan for accomplishing the
mission. The lack of programmatic controls and approaches led to instances of
questionable practices. Many of the security countermeasures were not installed, and
some that were accomplished were found to be non-operational, even though these
projects were reported as completed in the nationwide computer tracking system. As
a result, management information was not reliable, program resources were not
always wisely expended, and the security of Federal employees was not fully
enhanced at certain GSA-controlled facilities.




                                                          Office of Inspector General 3
                                      Reviews




                                       In our September 14, 1998 report, we recommended that the Assistant Commissioner
                                       take actions to:

                                       • Establish program accountability at the Central Office and regional levels.

                                          Seek to have security countermeasure funding remain prioritized, so that FPS can
                                          meet client agency security needs and maintain facilities at the recommended
                                          minimum security standards without having to compete for resources with other
                                          agency entities.

                                       • Instruct physical security specialists to review client agency countermeasure
                                         implementation as part of the periodic building inspection and risk assessment
                                         process.

                                       • Direct regional FPS officials to review and certify the accuracy of countermeasure
                                         completion cntrics previously entered in thc BSeS.

                                       • Establish a perpetual inventory over X-ray units and other expensive portable
                                         equipment items.

                                       • Require FPS regional offices to track and report actual cost data for all future
                                         countermeasures.

                                       Finally, we concluded that a reportable control weakness exists concerning the
                                       implementation and reported status of security countermeasures, and the use of
                                       designated security upgrade funds for projects that: (1) did not involve a Committee-
                                       recommended countermeasure, and (2) lacked Central Office approval. These
                                       conditions 'warrant a material weakness designation and should be reported under the
                                       Federal Managers' Financial Integrity Act.

                                       The Assistant Commissioner agreed with the findings and recommendations in the
                                       report. He stated that the Agency has taken a number of steps to address our
                                       recommendations, including requiring each region to review, correct, and certify the
                                       accuracy of data contained in the BSCS and the accounting system. These actions
                                       are to be accomplished for targeted higher security level buildings no later than
                                       October 1, 1998, and by March 30, 1999 for all remaining levels. In addition, FPS is
                                       looking to add new data fields to improve the database.

                                       The report is still in the resolution process.

                                       Information Systems Security
                                       The Internet is playing an ever-increasing role in our day-to-day lives, and across
                                       both Government organizations and private-sector companies, this revolutionary
                                       technology is transforming traditional business practices. While this increased
                                       connectivity provides tremendous benefits as a result of information-sharing and
                                       opportunities to improve business processes, additional security measures for systems
                                       linked to the Internet need to be addressed.




4 Semiannual Report to The Congress
Reviews of GSA Programs




 The Internet has inherent security weaknesses that make it vulnerable to various
 types of attacks and security breaches. As the Internet grows, GSA faces additional
 risks due to the skyrocketing numbers of individuals with potential access to its
 systems. Because tools are widely available on the Internet to assist hackers, system
 attacks require less technical expertise than in the past.

 Our assessment of six major Internet and Intranet Agency applications revealed a
 lack of: (1) clearly defined information technology (IT) security roles and
 responsibilities; (2) security plans that include Internet and Intranet operations; and
 (3) provisions for periodic reviews of established controls for these systems.

 Key security and management responsibilities for different parts of GSA's Internet
 resources arc dispersed across the Agency, and roles and responsibilitics for key
 security functions have not yet been clarified. Further, basic controls required for
 Federal systems are lacking for both centrally managed IT resources and for specific
 applications bcing developed and maintained by the Agency's Services and Staff
 Offices.

 Risk assessments have generally not been performed for GSA's systems currently
 connected to the Internet or Intranet, or for those systcms being modified to include
 Internet or Intranet capabilities. Therefore, decisions on the types of controls being
 built into these systems are being made ad hoc by individual system developers.
 Without performing risk assessments, system owners cannot determine which
 controls are needed to provide adequate protection for their systems.

 Reorganization of GSA Serviccs and Staff Offices has created the need for the
 establishment of roles and responsibilities to direct and monitor the Agency's IT
 security program. In the absence of such a policy framework, there is uncertainty
 among systems officials regarding security matters, specifically with regard to
 Internet and Intranet security issues. GSA has taken a critical first step in moving the
 Agency toward improved policies and procedures for IT security by developing a
 draft IT security policy document.

 Our September 24, 1998 report recommended that GSA's Chief Information Officer
 take the following actions to improve GSA's IT security:

 • Expedite the development and issuance of' an Agency-wide IT security policy that
   addresses risks with Intelllet and llltl anet systems.

 • Establish an IT security program with the resources and Agency-wide authority
   necessary to meet security requirements established by OMB Circular A-l30
   (Management of Federal Information Resources).




                                                             Office of Inspector General 5
                                      Reviews of                  Programs




                                       • Specify roles and responsibilities for Internet and Intranet security including
                                         management responsibilities for gateways, web sites, and applications, to ensure
                                         that adequate security measures are in place for the Wide Area Backbone Network
                                         and for Services and Staff Offices applications.

                                       • Ensure that IT security decisions are based on risk assessments for individual
                                         systems.

                                       The Chief Information Officer concurred with the recommendations. The report is
                                       still in the resolution process.

                                       Electronic Commerce Shopping
                                       GSA was the first to operate a catalog and ordering system for Government
                                       procurements on the World Wide Web. Any Federal agency with Internet access can
                                       comparison-shop products and prices for approximately 370,000 items currently
                                       offered on the Agency's on-line shopping system, GSA Advantage! 'I'M (Advantage).
                                       In FY 1997, agencies placed orders for about $28 million through Advantage, and
                                       this year's orders have already surpassed that marle Advantage also provides
                                       private-sector vendors with more sales opportunities, and once fully developed will
                                       allow agencies to make procurement decisions that are better informed, faster and
                                       cheaper. GSA has been recognized for its leadership role in streamlining
                                       procurement through electronic commerce and has received several awards for
                                       Advantage.

                                       GSA's goal was to have four million items on Advantage by July 1998. This goal
                                       was not met because the complexities of placing Multiple Award Schedule items on
                                       Advantage were much greater than anticipated. GSA is dependent on vendor
                                       cooperation to provide product information in a computer-readable syntax that
                                       conforms to industry standards. However, this can be a significant and costly
                                       undertaking for many vendors and has presented additional technological challenges
                                       to keep already-entered product data current and up-to-date. Only 29 percent of
                                       vendors have provided requested data. Many others are either unable or unwilling to
                                       do so.

                                       The OIG assessed the Agency's effOlis to place four million products and services on
                                       Advantage by July 1998. We ended our review at the conclusion of the survey phase
                                       since the Agency is actively evaluating the status of Advantage. We determined that
                                       GSA needs to develop a comprehensive plan that considers the design and
                                       development of Advantage from beginning to end, including well-defined tasks and
                                       realistic timeframes for completion. It also needs to allocate necessary resources to
                                       complete the design and development phase and to encourage vendor participation.

                                       In our August 31, 1998 report to the Commissioner, Federal Supply Service, we
                                       recommended that the Agency develop a comprehensive plan that includes:

                                       • Revisiting project objectives.

                                       • Outlining tasks to be completed, including a cost-benefit analysis of alternative
                                         solutions.


6 Semiannual Report to The Congress
Reviews of GSA Programs




 • Developing new milestones.

 • Developing performance measures that relate to established objectives.

 • Establishing an organization and staffing to achieve defined goals.

 The Commissioner concurred with our recommendations. The report is still in the
 resolution process.

 Rent Pricing Strategy
 In FY 1995, GSA began a process to re-examine its methodology for computing rent
 charged to Federal agencies occupying leased and owned space controlled by GSA.
 Management determined that improvements were needed to address perceived flaws
 and inequities in the rent billings structure. Tenants had complained that rent pricing
 was unfair and inflexible, and that the mechanism for setting rates was too complex
 and inefficient.

 GSA's new goals were to establish a more efficient process for setting rent rates,
 improve income stability of the Federal Buildings Fund, and generate sufficient
 revenue to carry out its mission. The proposed new rent strategy seeks to
 differentiate between owned and leased space and incorporate industry practices in
 setting rent. In FY1997, Federal agencies paid about $5 billion in rent to the Federal
 Buildings Fund.

 The OIG looked at the new pricing strategy to determine if it will help the Agency
 meet its goals. We found that the new strategy takes steps to simplify setting rent
 rates and should enhance the Agency's relationship with tenants. Rent charges for
 leased space will be based on a cost pass-through, rent bills will be more informative,
 and tenants will have greater flexibility and the potential for cost savings when
 tailoring new space for occupancy.

 However, the new strategy may result in less revenue generated for the Federal
 Building Fund, which is the principal source of funding for operating and
 maintaining existing space, acquisition of leased space, and the construction and
 purchase of new Federal buildings. Also, customers in Government-owned space
 may perceive that they will be subsidizing the cost pass-through rent of customers in
 leased spacc. Finally, until necessary billing and revenue software technology issues
 are resolved, the budget estimating and revenue forecasting processes which support
 the rent system are vulnerable to error.

 In our July 8, 1998 report to the Commissioner, Public Buildings Service, we
 presented our observations regarding the strengths and weaknesses of the new pricing
 strategy. Because the new strategy is still evolving, we did not provide formal
 recommendations in our report. However, management officials stated that they plan
 to use the information in our report as they continue to refine and implement the new
 rent strategy.




                                                            Office of Inspector General 7
                                      Reviews of GSA Programs




                                       Travel Management Program Funding Fee
                                       GSA has provided Federal travelers with access to commercial travel agents through
                                       the Travel Management Center (TMC) program since the 1980s. The TMCs' most
                                       familiar role is to assist Federal travelers in obtaining cost-effective transportation,
                                       lodging, and car rental services. Today's TMCs perform a variety of functions and
                                       their roles continue to evolve to keep pace with technological changes in the travel
                                       industry and ncw customer requirements.

                                       The Agency became an optional source for TMC services in 1994 and Congressional
                                       funding for the program was eliminated. Annual TMC costs are now required to be
                                       funded from program revenues. This is accomplished via the use of an Industrial
                                       Funding Fee (IFF) charged to customer agencies for their use ofthe TMC contracts.
                                       Revenue generated by the IFF must cover program costs, and at the same time costs
                                       of operation must be kcpt as low as possible in order to maintain thc customer base.

                                       Our review determined that the forecasted TMC revenues will not be sufficient to
                                       cover GSA's projected costs to provide travel services contracts to Federal customer
                                       agencies. The amount of the shortfall is not overly significant and, we believe, can
                                       be overcome.

                                       Three GSA zonal offices contract for TMC scrvices. While one of these offices has
                                       been designated the facilitating office, it has little or no control over the other two
                                       offices. Our review pointed out that the TMC program would benefit from a
                                       centralized organization through more eflicient application of policy, providing
                                       customers and industlY representatives one voice, and taxpayers a more cost-effective
                                       operation. Wc also reported that the IFF rates were being inconsistently applied and
                                       methods of contracting for TMC services differed among the oflices.

                                       Much of the TMC program administration involves manual processes that must be
                                       completed by program personnel. The development of a management information
                                       system would free up limited resources. Program personnel could then increase their
                                       attention to IFF compliance by TMCs and place more emphasis on compliance
                                       testing at individual TMC locations. Managcment is currently studying the
                                       feasibility of developing a management information system.

                                       We recommended in our June 23, 1998 report that the Commissioner, Federal Supply
                                       Service:

                                       • Ensure the TMC program revenue is monitored in conjunction with program
                                         expenses in an eHort to create a break-evcn position at year-end.

                                       • Determine an organizational structure that will provide a clear line of
                                         authority/responsibility that enables consistent communication and
                                         implementation of both policy and operational issues throughout Central Office
                                         and zonal TMC staffs.




8 Semiannual Report to The Congress
Reviews of GSA Programs




 • Establish one IFF rate for all customers applied against both their domestic and
   international sales.

 Responsive management action plans were provided for implementing the report
 recommendations.

              Avenue Development Corporation
 Financial Responsibilities
 The Pennsylvania Avenue Development Corporation (PADC), a quasi-government
 corporation, was established by Congress in 1972 to ensure that Pennsylvania Avenue
 and the area adjacent to it be developed in a manner suitable to its ceremonial and
 historical relationship with the Federal Government. PADC promoted the area's
 development using a variety of methods, such as providing grants directly to property
 owners for building renovations and acquiring property for resale to developers.

 Congress terminated the PADC on April 1, 1996, and transferred divided PADC
 assets, liabilities, and responsibilities among the National Capital Planning
 Commission, the National Park Service, and GSA. The Agency received real estate
 that PADC was planning to develop or had developed, along with the inherent
 financial responsibilities. Additionally, GSA was tasked to complete the Ronald
 Reagan Building and International Trade Center. The Agency received $13.6 million
 from the PADC transfer, along with any future income from the properties to carry
 out the transferred responsibilities.

 We undertook a review to identify any major financial and management issues which
 arose from this PADC transfer and absorption by GSA, and determine if the Agency
 was adequately addressing them.

 We noted that GSA successfully resolved the two most significant management and
 financial issues arising out of1he transfer ofPADC's assets, liabilities, and
 responsibilities to the Agency. The first issue was the resolution of a material
 weakness in identifying, valuing, and recording the transferred assets. The second
 issue dealt with the payment of outstanding debts due the U.S. Treasury.

 The Agency is also actively addressing the issues that remain. These include funding
 to complete the Ronald Reagan Building, payments-in-lieu-of-real-estate-taxes, and
 the sale and disposal of remaining assets.

 Our September 24, 1998 report contained no recommcndations.

 Small Business Administration B(a) Program
 The U.S. Senate Committee on Governmental Affairs requested that our office
 evaluate complaints from four minority-owned firms selling supply items to GSA
 through the Small Business Administration's (SBA) Section 8(a) program. These
 firms contacted the Committee with allegations of unfair treatment, including racial
 prejudice, harassment and other inappropriate conduct, and the use of improper
 procurement and contract management practices by GSA. The complainants alleged



                                                          Office of Inspector General 9
                                       Reviews of                  Programs




                                        that these actions caused their businesses financial hardship.

                                        In addition to requesting our assistance in evaluating the firms' complaints, the
                                        Committee submitted for our response a list of questions posed by one of the
                                        vendors. The questions primarily covcred procurement issues (types of contracting
                                        actions, contract clauses, etc.) and method-of-supply issues. We provided our
                                        responses to the questions to the Committee and GSA on October 13, 1997.

                                        Our review of procurement and contract administration actions taken by GSA
                                        determined that the Agency treated the complainants, other 8(a) vendors, and
                                        non-Sea) vendors in a consistent, fair manner. The complainants' assertions of
                                        improper treatment could not be substantiated. Although GSA had taken actions to
                                        terminate contracts awarded to two of the firms, the actions were justified in that the
                                        finns did not satisfactorily meet the requirements of their contracts.

                                        We did not identify any evidence of discriminatory practices, harassment of the
                                        complainants, or ethnic bias as eharged by the firms. GSA's participation in the 8(a)
                                        program has increased over the past few years and its accomplishments have met
                                        goals established by GSA and approved by SBA.

                                        Our April 24, 1998 report contained no formal recommendations.

                                        Agency Conferences Management
                                        In February 1993, President Clinton instructed executive departments to curtail the
                                        use of conferences. Shortly thereafter, the Office of Management and Budget issued
                                        Bulletin No. 93-11 stating that agencies are to exercise strict fiscal responsibility
                                        when selecting conference sites. GSA requires that senior management approve
                                        conferences sponsored by their organizations and that appropriate documentation be
                                        maintained. Regulations also prohibit the use of appropriated funds to pay for meals
                                        for local attendees, refreshments, and promotional items or mementos provided to
                                        conference participants, with some exceptions. In 1997, GSA spent about $1 million
                                        for conference-related activities.

                                        As part of our management controls review program, the OIG reviewed the
                                        sufficiency of GSA controls to justify selected conference sites, and to ensure that
                                        any conference-related expenses are appropriate.

                                        We concluded that management controls over conference site selections and
                                        expenditures were not adequate. Documentation to justify the need for the
                                        conference, the conference location-site selected, and approval by senior
                                        management was often not available. We also found inappropriate use of
                                        appropriated funds when conference attendees were provided meals, refreshments,
                                        and memento items, resulting in violation of the Purpose Statute (31 U.S.C. l30l). A
                                        lack of awareness of management's responsibilities, as well as pertinent guidance that
                                        is not sufficiently clear, contributed to these occurrences.




10 Semiannual Report to The Congress
Reviews of GSA Programs




 Tn our September 29, 1998 report, we reeommended that the Chief People Offieer:

 • Revise guidanee to specify the documentation requirements relative to the need
   for the conference, minimization of attendees, consideration of alternative sites
   and cost comparisons, and appropriate approval.

 • Have each Head of Scrvice and Regional Administrator establish a central point
   within his/her organization to control the conference authorization process.

 • Consolidate and clarify guidance regarding the use of appropriated funds for the
   purchase of memento items, meals, and refreshments at conferences and meetings.

 • We also recommended that the Chief Financial Officer have senior officials
   determine the full extent of Purpose Statute violations and initiate appropriate
   action.

 Management generally agreed with the reeommendations. The report is still in the
 resolution process.

 Regional Promotion Procedures
 Personnel management functions of the Federal Government are vested in the
 Direetor of the Office of Personnel Management (OPM) by Title 5, United States
 Code, Section 1104. OPM has delegated most of the functions to the Federal
 agencies and operates an oversight program to assure that delegated activities
 conform to the merit system principles and related standards.

 Management officials in one region asked for our assistance in determining whether
 appropriate controls are in place to assure that merit system principles are followed
 in the promotion process and how the region's promotion statistics compare to other
 regions.

 We found that internal controls relating to the promotion process are generally being
 followed in the region, although an independent control record was not being
 maintained to document receipt of applications for specific vacancy announcements.
 Without such a procedure, applicants could complain that their applications were
 received but not considered. Also, the minimum documentation required to
 reconstruct promotion actions was not always maintained in the promotion files.

 The percentage of minority employee promotions was found to be comparable to the
 ratio of minorities represented in the regional work force. Overall, the subject region
 promoted a larger percentage of employees than did any of the three other regions we
 examined. This increase, however, was caused primarily by the large number of
 positions in the region being reclassified, and the incumbent employees being
 accreted to higher grade levels.




                                                          Office of Inspector General 11
                                       Reviews of GSA Programs




                                        Our June 29, 1998 report recommended that the regional Director of the Human
                                        Resources and Program Support Division establish procedures to:

                                           Maintain an independent control record of applications received.

                                        • Document reasons for ineligibilities and the rankings of applicants for referred
                                          listings.

                                        • Assure the completeness of the promotion file documentation.

                                        Responsive management action plans were provided for implementing the report
                                        recommendations.

                                        The Audit Follow~up Process
                                        Office of Management and Budget Circular A-50 requires agencies to establish a
                                        process to ensure that recommendations from Office of Inspector General and
                                        General Accounting Office audit reports are addressed and implemented. Within
                                        GSA, these responsibilities have been delegated to the Division for Audit Resolution
                                        and Follow-up (the Division). We initiated this review as part of our ongoing effort
                                        to assess Agency management controls.

                                        Our review concluded that while the Division appears effective in tracking and
                                        closing audit action plans, GSA management has limited assurance that the actions
                                        taken effectively remedy conditions addressed by internal audit report
                                        recommendations.

                                        The Division relies heavily on self-certification by the audited organizations that they
                                        have effectively resolved reported deficiencies. We determined, however, that for
                                        deficiencies noted in several audit reports, corrective actions that had been reported
                                        as being fully implemented by the Division have not always accomplished desired
                                        results. Reorganization, downsizing, and other budget constraints have severely
                                        impacted the work of the Division. As a result, the Division does not perform
                                        follow-up reviews to determine if management's corrective actions were effective in
                                        resolving audit issues. Instead, the Division rclies on OIG implementation reviews to
                                        verifY that reported conditions have been corrected. Our report pointed out that the
                                        OIG can provide only limited coverage for audit follow-up on management actions,
                                        and the Division should not fully rely on OIG implementation reviews to satisfy its
                                        responsibility for the overall follow-up process.

                                        We also noted that the follow-up process does not provide for timely close-out of
                                        contract audits. Public Law 104-106 requires the OIG, in its Semiannual Report to
                                        the Congress, to identify all audit reports over 12 months old for which management
                                        has not completed final implementing actions addressing the reports' findings and
                                        recommendations. Untimely submission of contract audit close-out documentation
                                        has led to inaccurate reporting on final action items.




12 Semiannual Report to The Congress
Reviews of GSA Programs




 In our September 28, 1998 report, we recommended that the Controller and Audit
 Follow-up Official:

 • Follow the intent of OMB Circular A-50 to ensure that management actions
   effectively resolve reported deficiencies, and provide independent vcri1ication on
   significant actions relating to the Agency's mission.

 • Reemphasize the requirement for contracting officials to submit closure
   documentation in a timely manner.

 Management disagreed with some statements made in our draft report; and where
 appropriate, we restated our reported findings and recommendations. The report is
 still in the resolution process.

 Theft of Governnlent Properly
 On July 15, 1998, a former member of the Halchita Community Council, Mexican
 Hat, Utah was sentenced in U.S. District Court after pleading guilty to theft of
 Government property. He was sentenced to 12 months incarceration, 36 months
 probation, and ordered to pay $5,000 restitution. The former member wrongfully
 obtained Federal surplus property through the GSA Federal Surplus Personal
 Property Donation program.

 A joint OIG and Defense Criminal Investigative Service investigation was initiated
 when a GSA employee alleged that the former member was acquiring Federal surplus
 property for his own use. During the investigation, Government property valued at
 $506,000 was recovered and returned to the Federal surplus property program.

 Customer Order Shipment Discrepancies
 GSA provides thousands of products to its customers through its four stock depots
 and 11 Customer Supply Centers located around thc country. In FY 1997, depot
 sales exceeded $603 million. GSA has a "no questions asked" return policy in order
 to keep customers satisfied. If customers report lost or incomplete orders, or
 damaged products, the Agency's National Customer Service Center (NCSC) resolves
 the discrepancy by either issuing a credit to the customer or re-shipping the
 merchandise.

 Following a rccent 01G review that idcntificd unauthorized shipments of depot
 merchandise, we felt that other aspects of depot operations might be vulnerable to
 abuse. We selected the area of merchandise and invoice credits for shipping
 discrepancies because customers could take unfair advantage of the "no questions
 asked" policy and not pay for merchandise received.

 We reported that supply inventory adjustments in FY 1997 were less than
 $18 million dollars, amounting to about three percent of sales, which is not
 considered material when compared to the total depot sales. Our survey work
 concluded that management's controls regarding depot inventory adjustments were in
 place and effective.




                                                          Office of Inspector General 13
                                       Reviews of




                                        We noted areas for improvement, however, in that the Agency could not identify
                                        which small package carriers transported customer orders that were ultimately
                                        reported as lost or damaged. Although the depot now scans the shipment and carrier
                                        information and shares that data with the NCSC, the data was unusable due to
                                        incompatible information ficlds. Howcvcr, after we briefed GSA officials in two
                                        regions, management designed an interim strategy to provide the necessary shipment
                                        data to enable the NCSC to adequately resolve discrepancies in one depot, and upon
                                        test completion, intends to apply the tracking technique nationally. Finally, we
                                        reported that, even though customer service technicians had discovered many errors
                                        and had made corrections in other records, the NCSC database contained erroneous
                                        information rendering the order data unsuitable for management analysis purposes.

                                        In our August 5, 1998 report, we recommended that the Commissioner:

                                        • Require correction of erroneous data in the NCSC database when technicians
                                          detect errors; ensure that edit checks are incorporated into a new automation
                                          system being developed; and advise depots of their own errors so that corrective
                                          action can be taken.

                                        • Monitor regional initiatives to improve the ability to accurately resolve
                                          discrepancies, and duplicate successful initiatives at the remaining depots.

                                        Responsive management action plans were provided for implementing the report
                                        recommendations.

                                        Conversion of Federal Surplus Property
                                        On May 19, 1998, a physician pled guilty to converting surplus property from a
                                        Federal agency for his own benefit, and received a deterred adjudication pending his
                                        completion of 48 months probation. He was also fined and ordered to make an
                                        additional monthly payment during his probation.

                                        Ajoint OIG and Defense Criminal Investigative Service investigation was initiated
                                        after two hospital board members advised that the physician had proposed a scheme
                                        whereby the hospital would pay for surplus property which the physician intended to
                                        convert for his personal use. The investigation revealed that the hospital board paid
                                        $35,000 to the Federal Surplus Property Agency for future acquisitions. The
                                        physician then contacted the Agency and told it to use the $35,000 to pay for
                                        property he had previously acquired. The Federal property recovered was valued at
                                        over $140,000 and included a road          bulldozer, and fifth wheel truck. The
                                        physician obtained these items without the knowledge of the hospital board and
                                        stored the items on his personal property.




14 Semiannual Report to The Congress
                  Procurement Activities




                  GSA is responsible for providing working space for almost 1 million Federal
                  employees. GSA, therefore, acquires buildings and sites, constructs facilities, and
                  leases space, and also contracts for repairs, alterations, maintenance, and protection
                  of Government-controlled space. GSA also operates a Governmentwide service and
                  supply system. To meet the needs of customer agencies, GSA contracts for billions of
                  dollars worth of equipment, supplies, materials, and services each year. We review
                  these procurements both on a preaward and postaward basis to ensure that the
                  taxpayers 'interests are protected.

Significant DIG   Over $1.9 Million in Civil Recoveries
Accomplishments   During this period, the Government entered into 4 settlement agreements in which
                  companies agreed to pay a total of over $1.9 million to resolve their potential civil
                  liabilities under the False Claims Act. These agreements, negotiated by
                  representatives of the Department of Justice and the GSA OIG, reflect the ongoing
                  efforts of the OlG to pursue cases involving procurement fraud and other practices
                  which threaten the integrity of the Government's procurement process.

                  Many of these cases involved procurements under GSA's Multiple Award Schedule
                  (MAS) program. Under this program, GSA negotiates contracts with a number of
                  vendors who may then sell covered products to Federal agencies at established
                  contract prices. Consistent with the provisions of the Truth in Negotiations Act and
                  the Competition in Contracting Act, the process is based on the principles of full and
                  open disclosure and fair negotiations. Vendors must provide current, accurate, and
                  complete pricing information--including information about discounts granted their
                  most favored commercial customers--during contract negotiations. Relying on this
                  information, GSA contracting personnel then seek to obtain the best possible prices
                  for the Government. In cases where vendors fail to provide current, accurate, or
                  complete information, the Government may pay artificially inflated prices for
                  products and services purchased. Highlights ofthese cases follow.

                  • In an agreement signed June 29, 1998, Haworth, Inc., a manufacturer of systems
                    furniture for offices, agreed to pay $725,000 to resolve its potential civil False
                    Claims Act liability. The settlement resolved allegations that Haworth engaged in
                    defective pricing practices while negotiating its MAS contract and violated the
                    Cargo Preference Act by using non-U.S. vessels for transporting its products to
                    U.S. military installations overseas.

                  • EPS Technologies, Inc., an information technology hardware seller, agreed to pay
                    $564,000 to settle the Government's claims that it failed to provide accurate data
                    to GSA when it negotiated its MAS contract. The Government's investigation and
                    audit work had found that EPS failed to fully disclose the extent of its discounting
                    practices and that this failure resulted in higher prices to Federal customers.

                  • Office Depot, Inc., as the new owner of Allstate Office Products, Inc., agreed to
                    pay $550,000 to settle the Government's allegations that Allstate failed to
                    accurately disclose its discounting practices to GSA when it was negotiating its
                    MAS contract to supply office products to Federal customers. The Government




                                                                            Office of Inspector General   15
                                       Procurement Activities




                                          alleged that Allstate's failure caused Federal buyers to pay more for the products
                                          than they otherwise would have paid. The agreement also resolved alleged
                                          violations of the price reduction clause and overcharging of Federal customers.

                                       Bui/dings Maintenance Service Contracts
                                       GSA has changed the manner in which it procures and administers service contracts.
                                       Preventive maintenance, repairs, and janitorial services are being awarded as
                                       performance-based contracts, replacing prescriptive-type contracts, such as those
                                       with specified service frequency and work quantity requirements. This change
                                       means that management needs sufficient controls to ensure that contractors'
                                       performance meet overall requirements.

                                       The OIG reviewed the controls over mechanical and repair services rendered by
                                       private contractors in one region to ensure that the Government receives the services
                                       paid for, and that the Agency effectively administers these contracts.

                                       We found that the new performance-based contracts will essentially rely on
                                       contractors to provide quality service with lesser levels of oversight by GSA
                                       inspectors. GSA's ability to quickly identify and react to poorly-performing
                                       contractors is seen as an important control mechanism in the success of these
                                       performance-based contracts. We noted that there is a reluctance to impose sanctions
                                       for work not performed (or performed unsatisfactorily) even though GSA inspectors
                                       may identify repetitive performance deficiencies.

                                       We also observed that some required contractual work has not been performed
                                       because the prime contractors have failed to pay their subcontractors for past services
                                       and the subcontractors refuse to continue work or deliver reports until paid. Testing
                                       fire alarm systems and drinking water quality, picking up trash, and repairing
                                       equipment are some of the essential subcontracted activities affected. Also, some
                                       contractors were not paying their employees the hourly wage rates established by the
                                       Department of Labor. Finally, we noted that GSA is paying for minor repairs costing
                                       less than $2,000 per job, even though these seem to be the responsibility of the
                                       service contractors under the definition of "incidental repairs."

                                       In our September 9, 1998 report, we recommended that the Regional Administrator:

                                       • Establish controls that clearly define contractual requirements and the basis for
                                         termination for poor performance or non-payment of subcontractors.

                                       • Establish procedures to identify contractors' compliance with the Service Contract
                                         Act and refer identified violations to the Department of Labor.

                                       • Establish a record control requiring documcntation of managcment's dccision to
                                         pay for incidental repairs.




16 Semiannual Report to The Congress
Procurement Activities




The Regional Administrator agreed with most of the recommendations, but felt that
the existing procedures for reporting violations of the Service Contract Act to the
Department of Labor were adequate. The report is still in the resolution process.

Embezzlement and Conversion of Government
Property
On May 8, 1998, a contractor employee assigned to the GSA Bricker Parking Facility
in Columbus, Ohio pled guilty in U.S. District Court to embezzlement and conver-
sion of Government property. He was sentenced to 3 years probation and ordered to
pay restitution of $5,721 for conspiracy to defraud the Government.

The investigation was initiated when a GSA Federal Protective Service employee
reported the possibility of illegal activity at a Government parking facility. It was
determined that the contractor employee stole cash and checks collected for parking
space rentals. The converted cash and parking rights were worth $7,446. Tn one
instance, the contractor employee traded 1 year of parking for a computer. During
the investigation, OIG agents obtained a search warrant and seized the computer.

Customer Service Center Procurements
GSA provides space and related services to Federal customers through its Customer
Service Centers (CSC). Authorized CSC staff can procure supplies and services
needed to perform their official responsibilities using simplified acquisition
procedures. Agency-issued credit cards are the preferred means of purchase and are
considered more timely and cost-effective. Although procedures are simplified,
procurement officials are nevertheless required to comply with basic managcmcnt
controls mandated by GSA policy and guidelines.

In several recent reviews, we identified problems arising from a lack of management
controls being exercised, particularly in the procurement arena. Procurement
authority is being delegated to employees who are neither experienced nor trained in
procurement regulations. Accordingly, we included a review of the management
controls for CSC procurements as part of the OIG's annual audit plan. This period,
we examined simplified procurements in one regional CSC to see whether supplies
and services were procured in accordance with regulations and, if not, what the
significance or harm might be.

Wc found that procurements were generally made in accordance with policy and
guidance. A number of controls pertaining to credit card purchases, however, were
not being followed. In addition, required administrative actions to update a
control-contract log and a central procurement data system were not being accom-
plished. Although the deficiencies have not resulted in significant losses, GSA would
be exposed to undue risk should these conditions be allowed to continue.




                                                         Office of Inspector General 17
                                       Procurement Activities




                                       In our August 20, 1998 report to the Regional Administrator, we recommended that:

                                       • Credit card users and approving officials be properly trained and reminded of their
                                         responsibilities to comply with the minimal acceptable controls for credit card
                                         usage, and that approving officials be rcquired to perform meaningful reviews to
                                         ensure these controls are followed.

                                       • Contracting officials promptly enter required procurement data into the
                                         information system and maintain a contract action log with a sequential
                                         numbering system.

                                       The Regional Administrator generally agreed with the recommendations. The report
                                       is still in the resolution process.

                                       Property Management Procurement Activities
                                       GSA has the responsibility to provide fully-serviced space to house Government
                                       agencies in Federally-owned and leased buildings. Field offices and property
                                       management centers located in various geographical areas of the country fulfill the
                                       needs of Government agencies occupying these buildings. In general, the activities
                                       of a field office include procurement, asset management, maintenance, and lease
                                       administration.

                                       Our review of one field office identified several procurement-related control issues
                                       for management's attention. The certified invoice (micro-purchase) threshold was
                                       exceeded in several instances, and a number of certified invoice files did not contain
                                       required explanations of price reasonableness. Also, purchases were made using the
                                       International Merchant Purchase Authorization Card (IMPAC) for conference room
                                       rentals when Government conference rooms were available, and for unauthorized
                                       meals and groceries. Finally, access to and control over centralized procurement
                                       identification numbers did not meet established policy and could result in misuse of
                                       such control numbers.

                                       We also found that elevator maintenance contractors were not providing the required
                                       supervisory hours, even though GSA had been paying for these services. The
                                       process to recover overpayments was initiated as a result of our review.

                                       Tn addition, the field office needs to have an approved quality assurance program, as
                                       required by the elevator maintenance contracts, for all of the serviced buildings under
                                       its control. It is crucial to have a well documented and executed quality control
                                       program to show the Government that maintenance is being properly performed and
                                       monitored. Without such a program, it is difficult to determine what work or
                                       inspections were performed by the contractors. Inadequate preventive maintenance
                                       or repairs can cause mechanical failures and jeopardize passenger safety.

                                       We recommended in our September 14, 1998 report that the Regional Administrator:

                                       • Ensure that the field office adheres to established policy regarding simplified
                                         procurement methods.



18 Semiannual Report to The Congress
Procurement Activities




• Issue instmctions to field office management regarding proper use of credit cards
  and adherence to established regulations.

• Assign primary and altemate persons to improve controls over the centralized
  procurement numbers and register.

• Obtain, review, and approve quality control programs for the elevator maintenance
  contracts for each of the buildings under the field office's control.

The Regional Administrator agreed with our recommendations. The report is still in
the resolution process.




                                                        Office ofInspector General 19
                                   Partnering with                  Management




                                        Value-Added Assistance Services
                                        During this period, we continued to offer value-added assistance to GSA
                                        management through consulting services, advisory reviews, and other management-
                                        requested reviews. Our expanded efforts help the Agency to become more efficient
                                        and effective by providing managers with timely information they request to improve
                                        decision-making, program outputs, and mission accomplishment. These services
                                        have been added while we continue to offer our more traditional services, including
                                        program evaluations, contract and financial audits, and internal control reviews.

                                        Consulting Services. These OIG efforts are initiated by Agency management
                                        officials, not the OIG, and are designed to provide management with quick, up-front
                                        responses to specific program concerns. Requesting officials both define and limit
                                        the scope of the consulting project. Information objectively developed by the OIG is
                                        provided lor the interpretation and discretionary use of the requesting official in a
                                        true partnering relationship with Agency management. Additionally, consulting
                                        service products are distributed only to the requesting official and contain
                                        observations and alternatives for consideration in lieu of formal audit
                                        recommendations. Some of our consulting services are highlighted in the following
                                        paragraphs.

                                        • Shipment Confirmations - Management officials in one region requested our
                                          office to determine if "shipment eonfirmation(s)" are being entered into the
                                          information system prior to receipt of documentation from the contractor. We
                                          detennined that this is occurring, apparently because of an incentive program that
                                          can result in time-off and employee recognition awards for team members for on-
                                          time deliveries by contractors. In our April 2, 1998 report, we suggested that
                                          confirmation of shipments be entered into the system only after the confirmation
                                          document is received from the contractor. This will prevent accepting delinquent
                                          contractor shipments, maintaining inaccurate contractor performance history
                                          information, and awarding time-off and employee recognition awards when
                                          unearned.

                                        • Credit Card Contractor Performance - The Agency requested OIG assistance in
                                          determining whether the policies, procedures, and practices of a GSA credit card
                                          contractor "adequately ensure accuracy in invoicing, reporting, and tax issues."
                                          By applying sophisticated electronic data analysis, we were able to determine that
                                          the contractor maintains and uses current and accurate tax rates and exemption
                                          statuses. Our April 21, 1998 report also concluded that the contractor's electronic
                                          points of sale controls are adequate to detect and prevent significant fraudulent use
                                          of the credit card.

                                        • Documentation System Efficiency - Agency management was concerned that a
                                          manual documentation system was not efficient for controlling a property
                                          disposition function and requested our evaluation. While we found the current
                                          process to be effective, we were able to identify cumbersome procedures and
                                          suggest techniques to make records more accessible to the various user entities.
                                          Additionally, our July 20, 1998 report suggested opportunities for future
                                          automation of the record-keeping process to make it more efficient.



20 Semiannual Report to The Congress
          with




• Potential Market for Stock Sale Items - Management officials in one region
  requested our assistance in dctermining the feasibility of GSA providing supplies
  to contractors servicing Government-owned and leased buildings in that region.
  Our July 23, 1998 report concluded that the Agency could potentially become the
  contractors' supply sourcc through competitive pricing and servicc.

• Control Center Costs - Management officials were concerned that they lacked
  sufficient historical data on the cost to operate the existing Federal Protective
  Service's regional control centers. Under a megacenter concept, regional centers
  will be consolidated to serve a broad geographic area and services will be
  enhanced. Managers felt we could provide valuable information to assist them in
  future purchase and budgetary decisions during the implementation of the
  megacenters. Our report, issued May 29, 1998, identified staffing, operating
  functions during various tours of duty, level of services provided, and the related
  costs for these activities in five GSA regions. At management's request, we
  proceeded with a similar review for the remaining GSA regions and provided that
  data in our August 11, 1998 report.

• Congressional Inventory System - GSA provides support to congressional offices
  by maintaining inventory, expenditure, and reimbursement records related to
  office furniture and furnishings. The Agency oversees furniture fund balances and
  procures furniture for Senate offices, and performs physical inventories for both
  Senators and Congressmen. In one region, management requested our assistance
  because of concerns of incorrect data in the inventory system. We worked in
  partnership with regional personnel responsible for the inventory records to
  determine the extent of any problems and, if found, approaches to resolving them.
  Our September 30, 1998 report concluded that some inaccuracies do exist in the
  inventory system. We were able to determine that the primary reason for the
  inaccuracies was personnel new to this function, and we suggested actions to
  improve program oversight.

• Procurement Activities - A management official requested our assistance in
  reviewing whether the procurement and financial controls over certain projects
  within his office were adequate to protect the Governments interests. We assessed
  the controls opcrativc within thc scope of management's concerns. We concluded
  in our report dated September 30, 1998 that procurement activities by contracting
  personnel could be improved in the areas of authorized spending levels, and
  requircd reviews and approvals over procurements. We advised that personnel
  would benefit from refresher training courses to kecp current with revisions in
  procurement policies and procedures.

Advisory Reviews. These OIG services are designed to develop information useful
to Agency managers who are responsible for making decisions and initiating program
improvements. Typically, we will identify benchmarks and analyze best practices
used in both private industry and Government agencies to determine if GSA is
delivering comparable products and services as effectively as other provider entities.
Advisory reviews are usually initiated by the OIG, although management may




                                                         Office of Inspector General 21
                                  Partnering with GSA Management




                                       request them as well. Our reports provide observations and conclusions, without
                                       recommending corrective actions. 'fhe following highlights one such review
                                       accomplished during this period.

                                       GSA Planning for GPRA - The 1993 Government Performance and Results Act
                                       (GPRA) provides for strategic planning and performance measurement in the Federal
                                       Government. UPRA establishes a framework for more effective planning, budgeting,
                                       program evaluation, and fiscal accountability for Federal programs. GPRA requires
                                       that agencies prepare long-range strategic plans and annual performance plans that
                                       identify goals and measures to gauge progress. Ultimately, annual reports comparing
                                       actual accomplishments to sct goals will be required. GSA submitted its strategic
                                       plan to Congress in September 1997 and its FY 1999 performance plan in March
                                       1998. Both Congress and the General Accounting Office believed these submissions
                                       could be significantly improved.

                                       To assist GSA with its efforts to implement GPRA, the OIG compared thc Agency
                                       with other Federal agencies to identify "best practices" that GSA could find
                                       beneficial and adopt. During our review, we met with officials at three Federal
                                       agencies whose initial GPRA products were better received by Congress than were
                                       GSA's. In order to develop the agencies' mission, strategy, and goals, these three
                                       agencies commonly employed key practices which included: (l) clear, consistent, and
                                       visible involvement by senior management; and (2) clearly articulated roles and
                                       responsibilities of officials at all levels of the organization.

                                       In contrast, GSA's GPRA implementation was centered in the Office of Performance
                                       Management in the Office of the Chief Financial Officer. Senior management from
                                       GSA's major components had few opportunities to be actively engaged in the day-to-
                                       day implementation activities. Also, without sufficient guidance and coordination in
                                       developing performance plans among the major organizational components, the plans
                                       varied greatly.

                                       We issued our advisory report to the Chief Financial Officer (CFO) on June 29,1998.
                                       Since the report did not contain formal recommendations, written management
                                       comments were not required. The CFO stated, however, that the insights contained
                                       in the report would be helpful to GSA in preparing its FY 2000 Performance Plan.




22 Semiannual Report to The Congress
                             Prevention Activities




                           In addition to detecting problems in GSA operations, the DIG is responsible/or
                           initiating actions to prevent/raud, waste, and abuse and to promote economy and
                           efficiency.

Significant Preaward and   The OIG's preaward audit program provides information to contracting officers for
                           use in negotiating contracts. The pre-decisional, advisory nature of pre award audits
Other Audits               distinguishes them from other audits. This program provides vital and current
                           information to contracting officers, enabling them to significantly improve the
                           Government's negotiating position and to realize millions of dollars in savings on
                           negotiated contracts. This period, the OIG performed preaward audits of
                           55 contracts with an estimated value of $2.9 billion. The audit reports contained
                           over $274 million in financial recommendations.

                           This period, we audited eleven of the major companies with Multiple Award
                           Schedule (MAS) contracts for copiers to determine whether thc MAS contract prices
                           are fair and reasonable when compared to the companies' current standard
                           commercial sales practices. The Agency asked us to audit these companies because
                           it decided to extend the current copier contracts (originally awarded in 1993) for a
                           3-year period, rather than issuing a new solicitation and negotiating new contracts.
                           Thus, the copier companies were not required to submit any information regarding
                           their current sales and discounting practices. The estimated MAS contract sales for
                           the 11 companies during the 3-year extension period is $1.4 billion, or approximately
                           98 percent of the total MAS sales for copiers. Our recommended adjustments to the
                           current MAS contract prices for purchases, maintenance, rentals, and lease to
                           ownership plan could save contract users $198.8 million, or an overall savings of
                           approximately 14.2 percent for the 11 companies.

                           Our reports pointed out that the MAS contract prices for many models are not the
                           best prices available from the copier companies for similar purchases, although the
                           MAS contracts generally represents the companies' largest volume agreement.
                           Perhaps the most surprising discovery was that State governments' prices posted on
                           the Internet often are substantially better than the MAS contract prices. In addition
                           to State governments, many of the copier companies provide deeper discounts to
                           large commercial end user customers than to MAS contract users.

                           Further, several of the copier companies give commercial customers lower
                           maintenance and rental prices which include consumable supplies such as toner, than
                           the prices MAS customers pay for maintenance and rental without such supplies.
                           Some of the copier companies also offer better commercial pricing on multi-year
                           maintenance agreements than offered to MAS contract customers.

                           We also audited several claims for increased costs allegedly caused by the
                           Government during the construction and renovation of Federal buildings. Two of the
                           more significant audits contained proposed prices totaling $5.2 million, and
                           recommended adjustments of $4.6 million. In an audit of a claim for increased costs
                           due to various alleged Government caused delays, we advised the contracting officer
                           that the contractor's claim should be adjusted to eliminate duplications,
                           inconsistencies, and previously negotiated costs. In an audit of another claim, we
                           advised the contracting officer that a subcontractor's decision to obtain more


                                                                                     Office ofInspector General 23
                                         Prevention Activities




                                       expensive, but inferior, materials was based on an agreement with the prime
                                       contractor and not at the direction of the Government.

Integrity Awareness                    The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       cmployccs on their responsibilities for the prevention of fraud and abuse, and to
                                       reinforce employees' roles in helping to ensure the integrity of Agency operations.

                                       This period we presented 11 briefings attended by 110 regional employees. These
                                       briefings explain the statutory mission of the OrG and the methods available for
                                       reporting suspected instances of wrongdoing. In addition, through case studies and
                                       slides, the briefings make GSA employees aware of actual instances of fraud in GSA
                                       and other Federal agencies and thus help to prevent their recurrence. The briefings
                                       have in fact led to OIG investigations based on reports by GSA employees of
                                       suspected wrongdoing.

Hotline                                The OIG Hotline provides an avenue for concerned employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-controlled
                                       buildings, as well as brochures, encourage employees to use the Hotline.

                                       During this reporting period, we received 1,473 Hotline calls and letters. Of these,
                                       65 complaints warranted further GSA action, 17 warranted other Agency action, and
                                       1,391 did not warrant action.

Implementation Reviews                 The OrG performs, on a selected basis, independent reviews of implementation
                                       actions to ensure that management's corrective actions in response to OIG
                                       recommendations are being accomplished according to established milestones. This
                                       period, the OIG performed six implementation reviews. In five of the reviews, all of
                                       the recommendations had been implemented. In the other review, the actions taken
                                       for two of the five recommendations were not in accordance with management's
                                       action plan.




24 Semiannual Report to The Congress
Review of Legislation and Regulations




       The Inspector General Act of 1978 requires the OIG to review existing and proposed
       legislation and regulations to determine their ejJfxt on the economy and efficiency of
       the Agency s programs and operations and on the prevention and detection offraud
       and mismanagement.

       During this period, the OlG reviewed 283 legislative matters and 19 proposed
       regulations and directives. The OIG provided significant comments on the following
       legislative items:

       • Proposed Federal Property and Administrative Services Act Amendments of1998.
         We provided comments on proposed changes to the Federal Property and
         Administrative Services Act which would allow Federal agencies to enter into
         unlimited extensions and renewals of their real property leases. We believe that it
         would be more prudent to allow agencies some latitude in extending current
         leases, while retaining GSA's long-term properly management authority. We
         pointed out that allowing each agency unfettered lease renewal authority would
         seriously compromise GSA's ability to effectively manage Federal property in any
         particular geographical area. We strongly recommended that lease renewals by
         individual agencies be consistent with current and future overall Federal leasing
         plans for each relevant geographical area. We also recommended that some time
         limit be set for the extension of leases by Federal agencies, as well as
         requirements for formal competition by prospective lessors.

       • H.R. 4244, Federal Procurement System Performance Measurement and
         Acquisition Workforce Training Act of 1998. We provided several comments
         about the proposals in this bill aimed at improving the overall qualifications of
         those involved in the Federal procurement process. While we supported efforts to
         standardize the education and training requirements of acquisition professionals,
         we raised concerns about some of the specific provisions. For example, we
         questioned why there is a discrepancy between the Department of Defense (DOD)
         and civilian agencies on the level of education required. As drafted, the bill would
         require DOD contracting personnel to have a baccalaureate degree within
         1 year, while there is no such requirement for civilian contracting officials. We
         pointed out that there is no reason to distinguish between DOD and civilian
         contracting officials. We also recommended that an education requirement be
         phased in over a period longer that the I-year time frame proposed. We believe
         that it would be more fair to allow a longer phase-in period for the education
         requirements to avoid undue hardship on experienced, high-performing
         contracting officials, and the likely disruption of acquisition office operations. We
         also suggested that some of the proposed changes to the performance appraisal
         system for acquisition professionals raise privacy and fairness concerns. Further,
         we believe that some of the proposed changes to the recruitment process may
         unintentionally make it more difficult for agencies to quickly and efficiently hire
         qualified persons, thereby undermining the intent of that section of the bill.

       • S. 2167, Inspector General Act Amendments of 1998. We provided comments to
         the President's Council on Integrity and Efficiency on proposed amendments to
         the Inspector General Act of 1978 (the Act). We concurred with most of the
         proposed changes to the Act, including the addition of a specific, renewable term


                                                                Office of Inspector General 25
                              Review of Legis/ation and Regulations




                                         of years for IGs, the reduction of the number of reports to Congress from
                                         2 to I per year, and the change to 1G salary levels. Regarding the proposal to
                                         transfer the functions of very smalllGs to larger offices, we recommended that the
                                         bill also specifically provide for the transfer of personnel and appropriations to
                                         each 1G assuming a smaller 10's functions and responsibilities. We also
                                         recommended that the bill be changed to allow longer than 30 days to effectuate
                                         an orderly transfcr. Wc disagrecd with the portion of the bill that would requirc an
                                         external review of each Office of Inspector General every 3 years. We believe
                                         that this requirement is not necessary, given the congressional oversight already in
                                         place and the level of bureaucracy such a provision would add.

                                       • S. 1364, The Federal Reports Elimination Act of 1997. In our comments we
                                         generally supported the proposed elimination of unnecessary and duplicative
                                         reporting requirements. However, we noted our concern with a provision of the
                                         bill that would eliminate a report from GSA to Congress concerning GSA's
                                         disposition by negotiation of personal property of a value of over $15,000, and
                                         real property of a value of over $100,000. We believe that it is helpful for GSA to
                                         keep Congress apprised of the disposal of significant Federal property. We
                                         suggested that the bill be changed to raise the value of personal property, the
                                         disposal of which triggers the reporting requirement, to $100,000, and the value of
                                         reportable real propeliy disposal to $500,000. By making this change, the bill
                                         would reduce GSA's reporting requirement while continuing to ensure that
                                         Congress receives sufficient information to exercise appropriate oversight.

                                       In addition, the OIG provided comments on the following regulatory item:

                                       • Proposed Changes to the Federal Property Management Regulations to Allow the
                                         Donation of Federal Surplus Firearms to State and Local Law Enforcement
                                         Activities. We made recommendations to GSA on two occasions about its
                                         proposal to change the Federal Property Management Regulations to allow State
                                         and local law enforcement agencies to receive donation of surplus Federal
                                         firearms. While we generally supported the goal of making surplus weapons
                                         available to State and local law enforcement, we expressed strong reservations
                                         that the proposed regulatory amendments were being developed without
                                         appropriate controls. We commented that, in our experience, the current State
                                         surplus property systems are too lax to exert the kind of strict accountability and
                                         control that would be absolutely necessary in the disposal of weapons. We
                                         strongly recommended that the physical transfer of firearms be made directly to
                                         law enforcement officials, rather than to intermediary State surplus property
                                         agencies and that such transfers be made only after appropriate justification of
                                         need by the acquiring agency. We also recommended that, when donated firearms
                                         are no longer of use, they are returned to the donating Federal agency for
                                         destruction or that such destruction by the State be certified to GSA.




26 Semiannual Report to The Congress
                      Statistical Summary                              Accomplishments




                                       Audit Reports Issued
                                       The OIG issued 12h audit reports. The 126 reports contained financial
                                       recommendations totaling $287,469,747, including $274,294,641 in
                                       recommendations that funds be put to better use and $13,175, I 06 in questioned costs.
                                       Duc to GSA's mission of ncgotiating contracts for Govcrnmcntwide supplies and
                                       services, most of the recommcnded savings that funds be put to better use would be
                                       applicable to other federal agencies.

                                       Management Decisions on Audit Reports
                                       Table I summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of September 30,
                                       1998. Five reports more than 6-months old were awaiting management decisions as
                                       of September 30, 1998; all of them were preaward audits, issued before February 10,
                                       1996, which are not subject to the h-month management decision requirement. Table
                                       I does not include I report issued to another agency this period. Table 1 also does
                                       not include 24 reports excluded from the management decision process because they
                                       pertain to ongoing investigations, one of which was issued this period.




                           Table 1. Management Decisions on OIG Audits
                                                                                 Reports with                 Total
                                                              No. of               Financial                Financial
                                                             Reports           Recommendations          Recommendations

For which no management decision
had been made as of 4/1/98
  Less than 6 months old                                        27                     17                   $     8,948,975
  More than 6 months old                                        14                     12                             1,509
Reports issued this period                                     124                     62                       286,86~2~7~
TOTAL                                                          165                     91                    $298,503,363

For which a management decision
was made during the reporting period
 Issued prior periods                                           36                     25                    $ 11,234,785
  Issued current period                                         76
                                                               -----
                                                                                       22.                    ... ~9,441 ,390
TOTAL                                                          112                     54                    $ 40,676,175

For which no management decision
had been made as of 9/30/98
  Less than 6 months old                                        48                     33                    $257,421,489
  More than 6 months old                                         5                      4                       _4Q5.,Q22
TOTAL                                                           53                     37                    $257,827,188




                                                                                                 Office of Inspector General 27
                        Statistical Summary of OIG Accomplishments




                                        Management Decisions on udit Reports with
                                        Financial Recommendations
                                        Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                        recommendations by category (flmds to be put to better use or questioned costs).




                          Table 2. Management Decisions on OIG Au.dits with
                           Recommendations that Funds be Pu.t to Better Use

                                                                     No. of                          Financial
                                                                   Reports                       Recommendations

 For which no management decision had
 been made as of 4/1/98
   Less than 6 months old                                             12                          $     3,993,784
   More than 6 months old                                             12                                2,691,509
 Reports issued this period                                           39                              273,687,773
 TOTAL                                                                63                          $280,373,066

 For which a management decision was
 made during the reporting period
   Recommendations agreed to by
  management based on proposed
   omanagement action                                                                              $ 28,694,224
   ·Iegislative action
   Recommendations not agreed to
  by management                                                                                         1,234,279
 TOTAL                                                                 38                         $ 29,928,503
 For which no management decision had
 been made as of 9/30/98
   Less than 6 months old                                              21                          $250,038,864
   More than 6 months old                                               4                               405,699
 TOTAL                                                                 25                          $250,444,563




28 Semiannual Report to The Congress
                                       Summary of OIG Accomplishments




                          Table 3. Management Decisions on OIG Audits
                                     with Questioned Costs

                                                                  No. of                    Questioned
                                                                 Reports                      Costs

For which no management decision
had been made as of 4/1/98
  Less than 6 months old                                              5                    $ 4,955,191
  More than 6 months old                                              o                               o
Reports issued this period                                           23                     13,175,106
TOTAL                                                                28                   $18,130,297
For which a management decision
was made during the reporting
period
  Disallowed costs                                                                        $11,059,652
  Costs not disallowed                                                                          52)§J~

TOTAL                                                                16                   $11,112,284*
For which no management decision
had been made as of 9/30/98
  Less than 6 months old                                             12                    $ 7,382,625
  More than 6 months old                                              o                               o
TOTAL                                                                12                    $ 7,382,625

*lncludes $364,612 that management decided to seek that exceeded recommended amounts.




                                                                                        Office of Inspector General 29
                        Statistical Summary of OIG Accomplishments




                                          Investigative Workload
                                          The OIG opened 71 investigative cases and closed 95 cases during this period. In
                                          addition, the OIG received and evaluated 43 complaints and allegations from sources
                                          other than the Hotline that involved GSA employees and programs. Based upon our
                                          analyses of these complaints and allegations, OIG investigations were not warranted.

                                          Referrals
                                          The OIG makes criminal referrals to the Department of Justice or other authorities
                                          for prosecutive consideration and civil referrals to the Civil Division of the
                                          Department of Justice or U.S. Attorneys for litigative consideration. The OIG also
                                          makes administrative referrals to GSA officials on certain cases disclosing
                                          wrongdoing on the part of GSA employees, contractors, or private individuals doing
                                          business with the Government.



                                       Table 4. Summary of OIG Referrals
             Type of Referral                                Cases                                     Subjects
             Criminal                                          22                                         49
             Civil                                              4                                           8
             Administrative                                    66                                        100
             TOTAL                                             92                                        157

                                          In addition, the OIG made 20 referrals to other Federal activities for further
                                          investigation or other action and 20 referrals to GSA officials for informational
                                          purposes only.

                                          Actions on OIG Referrals
                                          Based on these and prior referrals, 9 cases (19 subjects) were accepted for criminal
                                          prosecution and 3 cases (4 subjects) were accepted for civil litigation. Criminal cases
                                          originating from OIG referrals resulted in 3 indictments/informations and
                                          12 successful prosecutions. OIG civil referrals resulted in 3 cases being accepted for
                                          civil action and 4 case settlements. Based on OIG administrative referrals,
                                          management debarred 29 contractors, suspended 7 contractors, and took 6 personnel
                                          actions against employees.




30 Semiannual Report to The Congress
           Statistical Summary of                         Accomplishments




                            Monetary Results
                            Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                            restitutions payable to the U.S. Government as a result of criminal and civil actions
                            arising from GIG referrals.

                            In addition, the GIG had administrative recoveries of $1 ,579,510 during the course of
                            its investigations.




                      Table 5. Criminal and Civil Recoveries
                                                     Criminal                              Civil

Fines and Penalties                               $ 111,020                         $

Settlements and Judgments                                                            1,989,000

Restitutions

TOTAL                                             $2,191,509                        $1,989,000




                                                                                        Office ofInspector General 31
I E
                      Appendix I ~ Significant Audits from Prior Reports



Under the Agency audit management decision process, the GSA        Contract Workload Management
Office of the Chief Financial Officer, Office of the Controller,
is responsible for tracking the implementation of audit recom-     Period First Reported: October 1, 1997 to March 31,1998
mendations after a management decision has been reached.           The review identifIed opportunities for improving workload
That office furnished the following status information.            management. The report contained one recommendation; it has
                                                                   not yet been implemented.
Fifteen audits highlighted in prior Reports to the Congress have
not yet been fully implemented; all are being implemented in       The recommendation involves the need to automate
accordance with currently established milestones.                  key activities of the contracting process. It is scheduled for
                                                                   completion by May 15, 1999.
IMPA        Credit Card Program
                                                                   Procurement Personnel
Period First Reported: October 1, 1997 to March 31, 1998
                                                                   Period First Reported: Octo her I, 1997 to March 31, 1998
Thc cvaluation focuscd on the controls over the usc of the
International Merchant Purchase Authorization Cards (lMPAC)        The review Jocused on the training and experience require-
for small purchases. The report contained four recommenda-         ments for procurement personnel. The report contained four
tions; they have not yet been implemented.                         recommendations; one has been implemented.

The recommendations include improving management con-              Two recommendations involve training requirements for
trols; developing a review program of card practices and           current and future contracting officers and are scheduled
transactions; providing training; and monitoring credit            for completion by December 15, 1998 and April IS, 1999. The
card purchases using available tools. They are scheduled for       third recommendation involves designing procedures to
completion between January 15, 1999 and February \5, 1999.         document selections, appointments, training, and terminations.
                                                                   It is scheduled for completion by December 15, 1998.
Megacenter Dispatch SeNices
Period First Reported: October 1, 1997 to March 31, 1998
                                                                   Year 2000 Computer Systems
The review focused on GSA's plans to consolidate security con-     Period First Reported: October 1, 1997 to March 31, 1998
trols centers into four megacenters. The report contained four     The review assessed GSA's progress for planned systems
recommendations; they have not yet been implemented.               conversions. The report contained three recommendations;
                                                                   they have not yet been implemented.
The recommendations include developing alternate access
procedures; developing contingency plans to continue dispatch      One recommendation involves determining systems that are
function during natural disasters; upgrading alarm systems; and    critical and need to be prioritized for conversion. Another
implementing a preventive alarm maintenance program. They          recommendation involves monitoring the progress against plans
are scheduled for completion by June 15,2000.                      and schedules. They are scheduled for completion by
                                                                   October 15, 1998. The third recommendation concerns taking
                 of           Billing                              steps to manage, coordinate, and accelerate year 2000 computer
                                                                   analysis and conversion. It is scheduled for completion by
Period First Reported. Octoher 1, 1997 to March 31, 1998
                                                                   October 15, 1999.
The review identified opportunities for improving the accuracy
of GSA's rent billing data. The report contained three recom-
                                                                   Federal Protective Service
mendations; one has been implemented.
                                                                   Investigation Office
The remammg recommendations involve reassessing
                                                                   Period First Reported: April 1, 1997 to September 30, 1997
accountability for building and tenant data accuracy and
adopting a reconciliation process that minimizes the chance        The evaluation focused on a review of the Federal Protective
of errors. They are both scheduled for completion by               Service's criminal investigation activities. The report contained
November 1,5, 1998.                                                five recommendations; one has been implemented.



                                                                                                      Office of Inspector General 35
                     Appendix 1- Significant Audits from Prior Reports



The remaInIng      recommendations include establishing              The remaInIng recommendation involves developing and
measurable performance standards; improving program                  implementing a business plan for the program. It is scheduled
accountability; establishing centralized training system and         for completion by October 15, 199R.
strengthening the coordination of the Intelligence Sharing
program; and considering adoption of benchmarked best                Telecommuting Centers
practices on a national basis. They are scheduled for
completion between October 15, 1998 and December 15, 1998.           Period First Reported: October 1, 1996 to March 31, 1997
                                                                     The review focused on GSA's role in the Federal Government's
Administration of Real Estate Taxes                                  telecommuting initiatives, and the recovery of costs and the
Period First Reported: April 1, 1997 to September 30, 1997           methods being used to recover costs. The report contained two
                                                                     recommendations; one has been implemented.
The review examined the real estate tax administration of
GSA's leases. The report contained two recommendations; one          The remaining recommendation involves developing billing
has been implemented.                                                rates to recover costs and developing a mechanism for billings.
                                                                     It is scheduled for completion by November 15, 1998.
This recommendation involves modifying contract procedures
to ensure that the Government receives its share of reductions
in real estate taxes. While all pertinent actions have been taken,
                                                                     Debarment Program
it remains open until all recovery actions are completed. It is      Period First Reported: October 1, 1996 to March 31, 1997
scheduled for completion by November 15, 1998.
                                                                     The review identified opportunities for improving the debar-
                                                                     ment program. The report contained two recommendations;
Inventory Cost Management
                                                                     they have not yet been implemented.
Period First Reported: April 1, 1997 to September 30, 1997
A review of the program management systems noted that                One recommendation involves modifying the new contractors'
improvements were needed in computing the economic order             performance database and is scheduled for completion by
quantity (EOQ). The repOli contained three recommendations;          June 15, 1999. The other recommendation involves providing
two have been implemented.                                           debarment program training to contracting officers. It is
                                                                     schedulcd for completion by January 15, 1999.
The remaining recommendation involves improving the
accuracy and reliability of EOQ to reduce inventory levels and       PBS Information Systems Strategy
operating costs. It is scheduled for completion by March 15,
                                                                     Period First Reported: April 1, 1996 to September 30, 1996
1999.
                                                                     The review identified the importance of defining, planning, and
Federal Acquisition Services for                                     coordinating the procurement of new information systems. Thc
Technology Program                                                   report contained two recommendations; one has been
                                                                     implemented.
Period First Reported         1, 1997 to September 30, 1997
The review identified opportunities for improving the manage-        The remaining recommendation requires ensuring that the GSA
ment of the program designed to quickly procure                      pilot systems and planncd software initiative are technically
off· the-shelf computer products and services. The report            compatible and are not duplicative. It is scheduled for
contained two recommendations; one has been implemented.             completion by October 15, 1998.




36 Scmiannual Report to The Congress
                    Appendix I Significant Audits from Prior Reports
                                         fi




Stock Program Management                                          Aircraft Management
information System                                                Period First Reported: October J, J995 to March 31, 1996
Period First Reported: October 1, 1995 to March 31, 1996          The review identified opportunities for improvement in the GSA
The review idenlified opporlunilies for improvement in            program for assisting civilian agencies with the man-
the accuracy and reliability of information provided to program   agement and cost-effectivencss of their aircraft operations.
managers. The report contained four recommcndations; two          The report contained five recommendations; four have been
have been implemented.                                            implemented.

One recommendation involves improving thc accuracy and            The remaining recommendation concerns the identification of
reliability of computerized lead time projections and is          aircraft data necessary for making informed decisions and is
scheduled for completion by April 15, 1999. The othcr             scheduled for completion by October 15, 1999.
rccommendation requircs thc continued development of an
information system and is scheduled for completion by
October 15,1998.




                                                                                                   Office of Inspector General 37
                                 Appendix 11- Audit Report Register

                                                                                                 Financial
                                                                                            Recommendations
                                                                                      ~"-----------   .~   ---   - -   -   ---


                                                                                      Funds to             Questioned
Date of          Audit                                                                Be Put To         (Unsupported)
Report           Number                       Title                                   Better Use             Costs


(Note: Because some audits pertain to contracting award or actions which have not
yet been completed, thefinancial recommendations to these reports are not listed in
this Appendix.)
PBS Management Consulting Reviews
OS/29/98         A80619       Management Consulting Review: Federal Protective
                              Service Control Costs in Regions 1, 2, 4, 10, and NCR
08111/98         A80634        Management Consulting Review: Federal Protective
                               Service Control Center Costs in Regions 3,5,6, 7, 8,
                               and 9

FSS Management Consulting Reviews
04/02/98         A81210       Management Assistance Review of the Region 4
                              Federal Supply Service's Shipment Confirmations

04/21198         A81803       Consulting Report: Review of Controls of Fleet
                              Services Card Contractor

07/20/98         A82122       Management Assistance Review of Excess Property
                              Program Documentation System

07/23/98         A82125       Management Assistance Review on Identification of a
                              Potential Market for Stock Sale Items

09/30/98         A83047       Management Consulting Review of Procurement
                              Activities, Federal Supply Service, Office of the
                              Controller

Other Management Consulting Reviews
09/30/98         A80328       Management Consulting Review: Accuracy of the
                              Congrcssional Inventory System, New England
                              Region

PBS Internal Audits
05/12/98         A80610       Audit of Elevator Maintenance Contracts in Region 2

06/29/98         A80637       Report on Security Upgrade Countermeasures in
                              Region 9

07/08/98         A73307       Audit of the Public Buildings Service's New Rent
                              Pricing Strategy




38 Semiannual Report to The Congress
                      Appendix /I Audit   m                          Register


                                                                                         Financial
                                                                                    Recommendations
                                                                                              -   --- -------------

                                                                               Funds to            Questioned
Date of    Audit                                                              Be Put To         (Unsupported)
Report     Number                 Title                                       Better Use             Costs


08/20/98   A82426   Audit of Procurements     ill   the Seattle, Washington
                    Customer Service Center

09/09/98   A80304   Management Control Review: Public Buildings Service,
                    Operations and Maintenance Contracts, New
                    England Region

09114/98   A70642   Audit of The Federal Protective Service's Program
                    for Upgrading Security at Federal Facilities

09/]4/98   A81520   Audit of the Public Buildings Service Field Office in                                 $26,219
                    Columbus, Ohio

09/24/98   A82435   Management Control Review of Phoenix Property
                    Management Center's Procurement Program, Pacific
                    Rim Region

09124/98   A83308   GSA's Integration of the Pennsylvania Avenue
                    Development Corporation

09125/98   A81502   Advisory Review of Performance-Based Service
                    Contracting Practices

09/30/98   A82413   Management Control Review of Pricing Negotiated
                    Leasing Procurements, Public Buildings Service

PBS Contract Audits
04/08/98   A83035   Limited Scope Preaward Audit of Change Order
                    Proposal: Landis & Staefa, Inc., Contract Number GS-
                    I1P95MKC0028

04/13/98   A80621   Preaward Audit of a Claim: Beacon/Pro Con Joint
                    Venture, Contract Number GS-02P-94-CUC-0070(N)

04120/98   A81528   Audit of Real Estate Tax Adjustments: American
                    National Bank, Trustee, Lease Number GS-OSB-15448,
                    Calendar Years 1994 Through 1996

04123/98   A81818   Audit of Proposed Overhead Rate: Acme Omaha
                    Sprinkler Company, Subcontractor to The Clark
                    Construction Group, Inc., Contract Number GS06P96-
                    GZC0508




                                                                                     Office of Inspector General 39
                                 Appendix /I - Audit Report Register

                                                                                                Financial
                                                                                      -----
                                                                                           Recommendations
                                                                                              ------~--   --   -- - - - -


                                                                                     Funds to             Questioned
Datc of          Audit                                                               Be Put To         (Unsupported)
Report           Numbcr                      Title                                   Better Use             Costs


04/27/98         A82423       Prcaward Audit of a Claim for Incrcascd Costs:
                              Hoffman Construction Company of Oregon, Contract
                              Number GS-IOP-94-LTC-0041

05/05/98         A83024       Preaward Audit of Change Order Proposal: William V.
                              Walsh Corporation, Inc., Contract Number GS-IIP96-
                              MKC-0027

05/05/98         A83025       Preaward Audit of Change Order Proposal: William V.
                              Walsh Corporation, Inc., Contract Number GS-
                              11P96MKC-0027

OS/28/98         A82443       Limited Scope Audit of Cost or Pricing Data: Body
                              Kinetic, Inc., Contract Number GS-09P-95-WCC-
                              0050

06/08/98         A80618       Postaward Audit of Recoverable Costs: Six World                                  $127,531
                              Trade Center, New York, NY, Lease Number GS-02B-
                              15370

06/17/98         A82441       Preaward Audit of a Claim for Increased Costs: Morse
                              Diesel International, Inc., Contract Number GS-09P-
                              95-KTC-OOI0

06/17/98         A83043       Preaward Audit of Architect and Engineering Services
                              Contract: JVP Engineers, P.C., Solicitation Number
                              GS IlP98EGD0068

06/18/98         A80630       Pre award Audit of a Termination Claim: Sunlight
                              Electrical Contracting Corp., Subcontractor to
                              Trataros Construction, Inc., Contract Number GS-
                              02P-97-DTC-0202

06/24/98         A81535       Audit of Real Estatc Tax Adjustments: Riggs National
                              Bank of Washington, DC, Trustee for Multi Employer
                              Property Trust (MEPT), Lease Number GS-05B-
                              l4919, Calendar Years 1992 Through 1997

06/29/98         A80632       Preaward Audit of a Change Order Proposal: Ava
                              Shypula Consulting, Inc., Contract Number GS-02P-
                              92-CU C-0028

06/30/98         A80623       Postaward Audit of Cafeteria Food Services Contract:
                              Acorn Food Services, Inc., Contract Number GS-02P-
                              94-CTC-0084


40 Semiannual Report to The Congress
                      Appendix II Audit Report Register
                                            m




                                                                                          Financial
                                                                                     Recommendations
                                                                               Funds to             Questioned
Date of    Audit                                                               Be Put To         (Unsupported)
Report     Number                  Title                                       Retter Use             Costs


07/13/98   A80317   Postaward Audit of Change Order Costs: Harrington                                 $5,159
                    Bros. Corp., Contract Number GS02P94CUC0039(N)

07/J6/98   A81219   Preaward Audit of Small Business Administration 8(A)
                    Pricing Proposal: Smith Real Estate Services, Inc'!Urban
                    Services Group, Inc., Joint Venture, Solicitation
                    Number GS··04P··98-RBC-·0035

07121198   A80318   Postaward Audit of Changc Ordcr Costs: Gwynn
                    Systcms Inc., Contract Number GS02P94CUC0039(N)

07122/98   A80320   Postaward Audit of Change Order Costs: M. J. Flaherty
                    Company, Contract Number GS02P94CUC0039(N)

07/23/98   A80921   Audit of a Claim: Star Electric Company, Incorporated,
                    Contract Number GS-03P-96-DXC-0021

07124/98   A82415   Preaward Audit of a Claim for Increased Costs: Western
                    Tile and Marble Contractors, Inc., Subcontractor to
                    Hoffman Construction Company of Oregon, Contract
                    Number GS-lOP-94-LTC-0041

08/10/98   A83045   Preaward Audit of Architect and Engineering Services
                    Contract: Klinker & Associates, Inc., Solicitation
                    Number GS 11 P98EGD0003

08/12/98   A82451   Pre award Audit of a Claim for Increased Costs: Thermal
                    Management, Inc., Contract Number GS05P95-
                    GBC0004

08112/98   A82452   Audit of Termination Settlement Proposal: Thermal
                    Management, Inc., Contract Number GS05P95GBC-
                    0004

08/13/98   A83046   Preaward Audit of Architect and Engineering Services
                    Contract: EBL Fire Engineering, Solicitation Number
                    GS-II P98EGD0003

08/19/98   A81539   Preaward Audit of Architect and Engineering Services
                    Contract: FEH Associates, Inc., Solicitation Number
                    GS06P98GYDOO 18

08/31/98   A81833   Pre award Audit of Cost or Pricing Data: The Benham
                    Group, Inc., Solicitation Number GS06P98GYDOOI8



                                                                                      Office oflnspector General 41
                                  Appendix 1/- Audit Report Register

                                                                                                 Financial
                                                                                            Recommendations
                                                                                           ------- "-----------

                                                                                      Funds to             Questioned
Date of          Audit                                                                Be Put To         (Unsupported)
Report           Number                       Title                                   Better Use             Costs


09/11/98         A83054        Preaward Audit of Architect and Engineering Services
                               Contract: EBL Fire Engineering, Inc., Solicitation
                               Number GS-I1P98EGD0004

09/17/98         A81834        Preaward Audit of Cost or Pricing Data: Rafael
                               Architects, Inc., Solicitation Number GS06P98-
                               GYD0018

09/23/98         A81837        Preaward Audit of Cost or Pricing Data: Leo A. Daly
                               Company, Solicitation Number GS06P98GYDOO 18

09/24/98         A82456        Audit of Termination Settlement Proposal:
                               Witherington Construction Corporation, Contract
                               Number GS-07P-95-HUC-0068

FSS Internal Audits
04/24/98         A71851        Review of Federal Supply Service Vendors'
                               Complaints of Inequitable Treatment

06/23/98         A70924       Audit of Industrial Funding Fee, Federal Supply
                              Service, Travel Management Center Program

08/05/98         A71214       Wholesale Distribution Center and National Customer
                              Service Center Adjustments

08/14/98         A81824       Rcview of Fleet Services Card Contractor's Reporting
                              of Fuel Tax Exemption Amounts

08/31/98         A83307       Audit of the FSS's Efforts to Place Multiple Award
                              Schedule Items on GSA Advantage

09/15/98         A81529       Audit of Management of the Federal Supply Service
                              Donation Program in the Great Lakes Region

FSS Contract Audits
04/03/98         A82433       Price Adjustments on Multiple Award Schedule
                              Contract: Network Computing Devices, Inc., Contract
                              Number GS-35F-4539G for the Interim Period
                              April 1, 1998 Through March 31, 1999

04/07/98         A82436       Postaward Survey of Multiple Award Schedule
                              Contract: Advanced Logic Research, Inc., Contract
                              Number GS-35F-3006B for the Interim Period July 1,
                              1997 Through December 3 1, 1997


42 Semiannual Report to The Congress
                        Appendix /I         w    udit Report Register

                                                                                         Financial
                                                                                ----
                                                                                    Recommendations
                                                                                       ----                 ------

                                                                               Funds to            Questioned
Date of     Audit                                                             Be Put To         (Unsupported)
Report      Number                  Title                                     Better Use             Costs


04/08/98    A82414    Postaward Survey of Multiple Award Schedule Contract:
                      Dolch Computer Systems, Contract Number GS-3SF-
                      4082D for the Interim Period September I, 1997
                      Through March 31, 1998

04/08/98    A82432    Limited Scope Postaward Audit of Government                                          $2,491
                      Billings: Dolch Computer Systems, Contract Number
                      GS-35F-4082D

04/09198    A72447    Postaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc., Contract Number GSOOK91-
                      AGS5828

04/09/98    A72448    Postaward Audit of Multiple Award Schedule Contract:                                $47,384
                      Ungermann-Bass, Inc., Contract Number GSOOK94-
                      AGS5367

04/09198    A82403    Postaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc., Contract Number GSOOK92-
                      AGS5984

04/09198    A82404    Postaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc., Contract Number GSOOK93-
                      AGS5617

04/09198    A8240S    Postaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc.,         Contract Number
                      GSOOK94AGSS617

04/09198    A82406    Postaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc., Contract Number GSOOK95-
                      AGS5617

04/09191)   A1)2407   Postaward Audit of Multiple Award Schedule Contract:
                      Tandem Computers, Inc., Contract Number GS-3SF-
                      0114D

04/29/98    A81S10    Price Adjustments on Multiple Award Schedule
                      Contract: The Worden Company, Contract Number GS-
                      28F-2067D for the Interim Period May I, 1998 Through
                      August 31, 2000

04/30198    A81S16    Postaward Audit of Multiple Award Schedule Contract:
                      Interior Concepts Corporation, Contract Number GS-
                      00F-9016A


                                                                                          Office of Inspector General 43
                                  Appendix 1/- Audit Report Register

                                                                                                Financial
                                                                                           Recommendations
                                                                                          - ------------   - - --- - - - - -

                                                                                     Funds to             Questioned
Date of          Audit                                                               Be Put To         (Unsupported)
Report           Number                       Title                                  Better Use             Costs


04/30/98         A8l533        Preaward Review of Multiple Award Schedule
                               Contract: Outboard Marine Corporation, Solicitation
                               Number 7FXG-U5-98-1901-B

05/11/98         A82440        Postaward Survey of Multiple Award Schedule
                               Contract: Continental Flooring Company, Contract
                               Number GS-27F-3037D, for the Interim Period
                               May 1, 1997 Through October 31, 1997

05120/98         A82439        Postaward Survey of Multiple Award Schedule
                               Contract: Polywell Computers, Inc., Contract Number
                               GS-35F-422lD for the Interim Period April I,
                               1999 Through March 31, 1999

OS/27/98         A42146       Postaward Audit of Multiple Award Schedule                                         $2,943,631
                              Contract: Haworth, Incorporated, Contract Number
                              GS-00F-0701O

06119/98         A40940       Postaward Audit of Multiple Award Schedule                                              $369,940
                              Contract: Allstate Office Products, Incorporated,
                              Contract Number GS-00F-4530A for the Period
                              April 1, 1991 Through March 31, 1994

06119/98         A82124       Preaward Review of Multiple Award Schedule
                              Contract: American of Martinsville, Contract Number
                              G8-27F-20018

06/19/98         A82126       Preaward Review of Multiple Award Schedule
                              Contract: Thomasville Furniture Industries, Inc.,
                              Contract Number GS-27F-2018B

06/29/98         A80617       Postaward Audit of Multiple Award Schedule                                              $627,829
                              Contract: Olympus America, Inc., Contract Numhers
                              GS-24F-1275C and GS-24F-1291C, for the Interim
                              Period March 2, 1995 Through February 28, 1998

06/29/98         A80917       Preaward Audit of Multiple Award Schedule Contract
                              for the Extension Period October 1, 1998 Through
                              September 30, 2001: Sharp Electronics Corporation,
                              Contract Number GS-26F-6132B

06/29/98         A81822       Postaward Audit of Requirements Contract: Stack-On
                              Products Company, Contract Number GS-06F -78482




44 Semiannual Report to The Congress
                       Appendix II Audit Report Register
                                             m




                                                                                          Financial
                                                                                     Recommendations
                                                                               Funds to             Questioned
Date of     Audit                                                              Be Put To         (Umml)lorted)
Report      Number                  Title                                      Better Use             Costs


06/29/98    A82444   Limited Scope Postaward Audit of Govcrnment                                       $2,649
                     Billings: Continental Flooring Company, Contract
                     Number GS-27F-3037D

06/30/98    A82454   Limited Scope Postaward Audit of Government                                      $12,222
                     Billings: Robbins Scientific Corporation, Contract
                     Number GS-24F-1360C

07/01198    A809ll   Preaward Audit of Multiple Award Schedulc Contract
                     for the Extension Period Octoher 1, 1998 Through
                     September 30,2001: Danka Office Imaging Company,
                     Contract Number GS-26F-l 018B

07/01198    A82437   Postaward Audit of Multiple Award Schedule Contract:                              $2,935
                     Robbins Scientific Corporation, Contract Number GS-
                     24F-1360C

07/02/98    A8l526   Postaward Audit of Overbillings, Multiple Award                                  $66,175
                     Schedule Contract: The Worden Company, Contract
                     Number GS-28F-2067D for the Interim Period March 7,
                     1996 Through December 16, 1997

07/08/98    A82129   Preaward Review of Multiple Award Schedule Contract:
                     Spaces aver Corporation, Contract Number GS-28F-
                     lO03C

07/09/9iS   A40935   Postaward Audit of Multiple Award Schedule Contract:                             $43,50iS
                     Allstate Office Products, Incorporated, Contract Number
                     GS-25F-4087B for the Period April 1, 1994 Through
                     April 14, 1995

07/09/9iS   A82128   Preaward Review of Multiple Award Schedule
                     Contracts: Design Contempo, Inc., Contract Numbers
                     GS-27F-2028B and GS-27F-2029B

07116/98    A80914   Preaward Audit of Multiple Award Schedule Contract
                     for the Extension Period October 1, 1998 Through
                     September 30, 200 I: Savin Corporation, Contract
                     Number GS-26F-1009B

07117/98    A60934   Postaward Audit of Multiple Award Schedule Contract:                         $1,249,896
                     Interface Flooring Systems, Inc., Contract Number GS-
                     00F-0002A for the Interim Period October 8, 1992
                     Through February 2iS, 1997



                                                                                      Office of Inspector General 45
                                 Appendix II ~ Audit Report Register

                                                                                                Financial
                                                                                           Recommendations
                                                                                    Funds to              Questioned
Date of          Audit                                                              Be Put To          (Unsupported)
Report           Number                      Title                                  Bf,tter Use             Costs


07120/98         A80912       Prcaward Audit of Mulliplc Award Schedule Contract
                              for the Extension Period October 1, 1998 Through
                              September 30, 2001: Canon U.S.A., Inc., Contract
                              Number GS-26F-I016B

07/20/98         A82127       Preaward Review of Multiple Award Schedule
                              Contract: White Systems, Inc., Contract Number GS-
                              28F-I043C

07/24/98         A82135        Preaward Review of Multiple Award Schedule
                               Contract: Kardex Systems, Inc., Contract Number
                               GS-28F-I004C

07/29/98         A80913        Preaward Audit of Multiple Award Schedule Contract
                               for the Extension Period October 1, 1998 Through
                               September 30, 2001: Konica Business Technologies,
                               Inc., Contract Number GS-26F -1 025B

07/31/98         A80910        Preaward Audit of Multiple Award Schedule Contract
                               for the Extension Period October 1, 1998 Through
                               September 30, 2001: Xerox Corporation, Contract
                               Number GS-26F-I001B

07/31/98         A80919        Preaward Audit of Multiple Award Schedule Contract
                               for the Extension Period October 1, 1998 Through
                               September 30, 2001: Mita Copystar America, Inc.,
                               Contract Number GS-26F-l 006B

08/03/98         A80916        Preaward Audit of Multiple Award Schedule Contract
                               for the Extension Period October 1, 1998 Through
                               September 30, 2001: Oce Office Systems, Contract
                               Number GS-26F-1 005B

08/06/98         A80923        Preaward Audit of Multiple Award Schedule
                               Contract: SeaArk Marine, Inc., Solicitation Number
                               7FXG-U5-98-1901-B

08/07/98         A10830        Postaward Audit of Multiple Award Schedule                             $1,277,189
                               Contract: Shaw-Walker Company, Contract Number
                               GS-00F-76677

08/07/98         A21578        Postaward Audit of Multiple Award Schedule                               $866,845
                               Contract: Shaw-Walker Company, Contract Number
                               GS-00F-94 J 75



46 Semiannual Report to The Congress
                      Appendix II - Audit Report Register

                                                                                       Financial
                                                                                  Recommendations .. -
                                                                                    -------    ~-   -------_

                                                                             Funds to            Questioned
Date of    Audit                                                            Be l>ut To        (Unsupported)
Report     Number                 Title                                     Better Use             Costs


08/10/98   A81220   Pre award Audit of Multiple Award Schedule Contract:
                    Mercury Marine, Division of Brunswick Corporation,
                    Solicitation Number 7FXG-U5-98-1901-B

08/12/98   A80918   Preaward Audit of Multiple Award Schedule Contract
                    for the Extension Period October 1, 1998 Through
                    September 30, 2001: Ricoh Corporation, Contract
                    Number GS-26F-1015B

08/19/98   A80915   Preaward Audit of Multiple Award Schedule Contract
                    for the Extension Period October I, 1998 Through
                    September 30,2001: ARM, Inc., Contract Number GS-
                    26F-1002B

08121198   A80922   Preaward Audit of Multiple Award Schedule Contract
                    for the Extension Period October I, 1998 Through
                    September 30, 2001: Minolta Corporation, Contract
                    Number GS-26F-1003B

09/01198   A22520   Postaward Audit of Multiple Award Schedule Contract:                             $597,602
                    FileNet Corporation, Contract Number GS-00F-06355

09/01/98   A82136   Preaward Audit of Multiple Award Schedule Contract:
                    Oracle Corporation, Solicitation Number FCI-96-
                    DLOOOIB

09/02/98   A81224   Preaward Audit of Multiple Award Schedule Contract:
                    Boston Whaler, Incorporated, Solicitation Number
                    7FXG-U5-98-1901-B

09/02/98   A82133   Preaward Rcview of Multiple Award Schedule Contract:
                    Silicon Graphics, Inc., Contract Number GS-35F-4947H

09/04/98   A90302   Postaward Audit of Multiple Award Schcdulc Contract:                        $4,292,893
                    Westinghouse Furniture Systems, Contract Number
                    GS-00F-76574

09/15/98   A80924   Preaward Audit of Multiple Award Schedule Contract
                    for the Extension Period April 1, 1999 Through
                    March 31, 2002: GE Capital Information Technology
                    Solutions, Federal Systems, Inc., Contract Number GS-
                    35F-3013D




                                                                                   Office of Inspector General 47
                                 Appendix II - Audit Report Register

                                                                                                 Financial
                                                                                            Recommendations
                                                                                       Funds to            Questioned
Date of         Audit                                                                 Be Put To         (Unsupported)
Report          Number                       Title                                    Better Usc             Costs


09/22/98         A8093 I       Preaward Review of Multiple Award Schcdule
                               Contract For The Extension Period April 1, 1999
                               Through March 31, 2004: Computer Associates
                               International, Inc., Contract Number GS-35F-5169H

09/22/98         A80933        Preaward Review of Multiple Award Schedule
                               Contract   For The Extension Period April 1,
                               1999 Through March 3, 2002: Logicon, Inc.,
                               Contract Number OS-3SF-4S06G

09/23/98         ASlS44        Postaward Audit of Multiple Award Schedule                                 $492,564
                               Contract: Haworth, Inc., Contract Number GS-OOF-
                               0826F

09/24/98         A42417        Limited Scope Postaward Audit of Multiple Award
                               Schedule Contract: Zero Stantron, Division of Zero
                               Corporation, Contract Number GS-07F-3803A

09/24/98         A42561        Limited Scope Postaward Audit of          Freight                           $17,523
                               Overcharges on Government Billings: Zero Stantron,
                               Division of Zero Corporation, Contract Number GS-
                               07F-3803A

09/24/98         A80934        Preaward Audit of Multiple Award Schedule
                               Contract: Simple Green, a Division of Sunshine
                               Makers, Inc., Solicitation Number TFTP-97-SC-
                               7906B

09/28/98         A82143        Preaward Audit of Multiple Award Schedule Contract
                               for The Extension Period April I, 1999 Through
                               March 31, 2002: Advanced Technology Systems,
                               Inc., Contract Number GS-35F-4704G

09/29/98         A82121        Interim Postaward Audit of MUltiple Award Schedule                          $65,316
                               Contract: Clark Material Handling Company,
                               Contract Numbers GS-07F-5850A and GS-07F-
                               89940

Other Internal Audits
OS/21198         A70933       Audit of the Work-at-Home Program      III   the Mid-
                              Atlantic Region

06/29/98         A82106       Audit of Human Resources and Program Support
                              Divisions's Promotion Procedures in Region 7



48 Semiannual Report to The Congress
                      Appendix II Audit Report Register
                                          m




                                                                                      Financial
                                                                             --
                                                                                 Recommendations
                                                                                  --------.---,~        -"-
                                                                                                   -- - - - - - - - -------

                                                                            Funds to            Questioned
Date of    Audit                                                           Be Put To         (Unsupported)
Report     Number                 Title                                    Better Use             Costs


06129/98   A83302   Advisory Report: Useful GPRA Practices for GSA

06/30/98   A82l07   Review of Controls Over Usc of Purchase Cards in
                    Region 7 Print Plants

09124/98   A83602   GSA's Information Systems Security Has Not Kept Pace
                    With Increasing Internet and Intranet Risks

09128/98   A8302l   Audit of Controls Over GSA's Audit Follow-up Process

09/29/98   A82410   Management Control Review of Conference Site
                    Selections

09/30/98   A72705   Arthur Andersen LLP, Fiscal Year 1997 Comments and
                    Suggestions for Consideration (Management Letter)

Non-GSA Contract Audits
06/12/98   A82447   Preaward Audit of Cost or Pricing Data: Shell Oil
                    Company




                                                                                      Office of Inspector General 49
   Appendix III - Audit Reports over 12 Months Old with Final Action Pending


Pursuant to Section 810, Prompt Resolution of Audit             report issuance date. The GSA Office the Chief Financial
Recommendations, of the National Defense Authorization Act,     Officer, Office of the Controller, furnished the following
(Public Law 104-106), this appendix identifies those audit      information.
reports where final actions remain open 12 months after the


       Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed

Date of          Audit
Report           Number                                              Title


Contract Audits
03/01/96         A60327       Report on Audit of Subcontractor's Claim for Increased Costs: Kendland Company Inc., Contract
                              Number GSOIP93BZC0003

03/18/96         A60318       Report on Audit of Claim for Increased Costs: Maron Construction Co., Inc., Contract Number
                              GSO 1P93BZC0003

04/10/96         A31549       Postaward Audit of Multiple Award Schedule Contract: GF Office Furniture, Ltd., Contract Number
                              GS-00F-07017 for the Period December 27, 1988 Through September 30, 1991

05/17/96         A41843       Postaward Audit of Multiple Award Schedule Contract: Memorex Computer Supplies, Contract
                              Number GS-02F-6109A for the Period May 8,1992 Through March 31,1994

OS/29/96         AI0542       Postaward Audit of Multiple Award Schedule Contract:      Sunshine Chemical Specialties, Inc.,
                              Contract Number GS-00F-87668

07/12/96         A62496       Preaward Audit of Lease Escalation Proposal: One Waterfront Plaza Partners, Lease Number GS-
                              09B-89551

08/13/96         A51851       Postaward Audit of Multiple Award Schedule Contract: Tiffany Office Furniture, Contract Number
                              GS-00F-5057A for the Interim Period April 15, 1991 Through April 12, 1995

08/15/96         A51827       Postaward Audit of Multiple Award Schedule Contract: Sybase, Inc., Contract Number
                              GSOOK92AGS5576 for the Period September 9, 1992 Through Scptember 30, 1993

08/21/96         A61544       Preaward Audit of a Claim: D. 1,. Woods Construction, Inc., Contract Number GS05P91 GRC0057

09/20/96         A61534       Preaward Audit of a Claim: Marino Construction Company, Contract Number GS05P90GBCOlOl

10/15/96         A63647       PreawardAudit of Change Order Proposal: Mahogany, Inc., a Subcontractor of Turner Construction
                              Company, Contract Number GS-ll P91 AQC0060

10117/96         A53617       Postaward Audit of Multiple Award Schedule Contract: Cantwell-Cleary Co., Inc., Contract Number
                              GS-02F-6071A for the Interim Period March 31,1992 Through October 31,1994

10/24/96         A63649       Preaward Audit of Architect and Engineering Services Contract: Alphatec, P.c., Solicitation
                              Number GSI1P96EGDOOOI




50 Semiannual Report to The Congress
  Appendix III - Audit Reports over                 Months Old with                      Action Pending


Date of    Audit
Report     Number                                           Title


11/01196   A21882    Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc., Contract
                     Number GS-OOF-07065 for the Period November 14, 1988 Through September 30, 1991

11101196   A31851    Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc., Contract
                     Number GS-OOF-02598 for the Period August 26, 1988 Through March 31, 1991

11101196   A31865    Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc., Contract
                     Number GS-OOF-02046 for the Period December 4, 1987 Through September 30, 1990

12/17/96   A63646    Pre award Audit of Termination Claim: W.M. Schlosser Co., Inc., Contract Number
                     GS 11P95AQC0002

01110/97   A52159    Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems, Inc., Contract
                     Number GS-OOK-91-AGS-5201

01/24/97   A72431    Audit of Real Estate Tax Adjustments: Pacific Corporate Towers, LLC, Lease Number GS-09B-
                     85185, Calendar Years 1987 Through 1995

02/06/97   A70622    Pre award Audit of Change Order Proposal: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

03/17/97   A72433    Audit of Real Estate Tax Adjustments: L.A. World Trade Center Partnership and Royal Investment
                     System Partnerships, Lease Number GS-09B-85563, Calendar Years 1989 Through 1996

03/17/97   A7245 1   Limited Scope Preaward Audit of Proposed Overhead Rate: ET LaFORE, Inc., Contract Number
                     GS-08P-96-JBC-000 1

03/18/97   A70621    Preaward Audit of a Delay Claim: The Haskell Company, Contract Number GS-04B-31363

03121197   A70632    Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number GS-02P-94-
                     CUC-0033(N)

03/24/97   A72434    Audit of Real Estate Tax Adjustments: WRC Propeliies, Inc., Lease Number GS-09B-88163,
                     Calendar Years 1990 Through 1996

03124/97   A72435    Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-91634,
                     Calendar Years ] 993 Through 1996

03/25/97   A70306    Pre award Audit of Architect and Engineering Services Contract: R.G. Vanderweil Engineers, Inc.,
                     Solicitation Number GS-01P-95-BZC-0047

03126/97   A72429    PreawardAudit ofa Claim for Increased Costs: Columbia Fabricating Company, Inc., Subcontractor
                     to The George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

04/03/97   A72450    Preaward Audit of a Claim for Increased Costs: Azteca Construction, Inc., Subcontractor to Morse
                     Diesel International, Inc., Contract Number GS-09P-95-KTC-0032




                                                                                         Office of Inspector General 51
   Appendix III - Audit                          over        Months Old with                                 Pending


Date of          Audit
Report           Number                                              Title


04/04/97         A72437        Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-9l267,
                               Calendar Years 1993 Through 1995

04/04/97         A72436       Audit of Real Estate Tax Adjustments:    WRC Properties, Inc., Lease Number GS-09B-90017,
                              Calendar Years 1991 Through 1995

04/10/97         A70636        Preaward Audit of a Delay Claim: B&W Mechanical Contractors, Inc., and Regency Electric
                               Company, Inc., Subcontractors to the Haskell Company, Contract Number GS-04B-31363

04/18/97         A70628       Postaward Audit of Multiple Award Schedule Contractor: Clayton Associates, Inc., Contract
                              Number GS-07F -8188B, for the Interim Period June 1, 1994 Through January 31, 1997

04/24/97         A712l2       Preaward Audit of Cost and Pricing Proposal: The Logistics Company, Inc., Task Order Request
                              GSC-TFGR-97-2002

06/06/97         A736l9       Prcaward Audit of Cost or Pricing Data: Symbiont, Inc., RFP Numbcr GSC-TFGD-97 -1010

06/06/97         A72466       Limited Scope Prcaward Audit of Proposed Overhead and Direct Labor Rates: Brayton & Hughes
                              Design Studio, Solicitation Number GS-09P-95-KTC-0029

06111/97         A61827       Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing Company,
                              Contract Number GS-07F-3956A for the Period February 1, 1992 Through October 31, 1995

06116/97         A70927       Preaward Audit of Cost or Pricing Data: JlL Information Systems, Inc., Proposal No. GSC-TFGD-
                              97-10l2

06/17/97         A72464       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Moore Ruble Yudell,
                              Solicitation Number GS-09P-95-KTC-0029

06117/97         A72470       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Frederick Brown
                              Associates, Solicitation Number GS-09P-95-KTC-0029

06/24/97         A70928       Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-TFGD-97 -1014

06/25/97         A72445       Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., Contract Number
                              GS-09P-95-KTC0032

06/26/97         A72471       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Tsuchiyama &
                              Kaino, Inc., Solicitation Number GS-09P-95-KTC-0029

06/26/97         A72465       Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors, Subcontractor to
                              Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

06/27/97         A7l811       Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel International,
                              Inc., Contract Number GS06P94GYC0037




52 Semiannual Report to The Congress
  Appendix III - Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                          Title


07111/97   A71533   Pre award Audit of Claim for Increased Costs: M.A. Mortenson Company, Contract Number GS-
                    05P-93-GBC-0022

07111/97   A71803   Audit of Claim for Increased Costs: Nicholson Construction Company, Contract Number
                    GS06P94GYC0037

07/22/97   A71804   Audit of Claim for Increased Costs: Rodio/lCOS St. Louis Joint Venture, Subcontractor to Morse
                    Diesel International, Inc., Contract Number GS06P94GYC0037

07/28/97   A70307   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Edward Ochman Systems,
                    Contract Number GS-00F-5350A

07/29/97   A71838   Pre award Audit of Cost or Pricing Data:           Boese Electric,   Inc.,   Contract Number
                    GS06P94GYC0076(N)

07/29/97   A61849   Postaward Audit of Multiple Award Schedule Contract: Hytorc, Division of Unex Corporation,
                    Contract Number GS-06F -77977 for the Period November 1, 1989 Through October 31, 1994

07/30/97   A70644   Preaward Audit of Cost or Pricing Data: Cole Consulting Corp., Subcontractor to Lehrer McGovern
                    Bovis, Inc., Contract Number GS-02P-92-CUC-0028(N)

07/30/97   A71819   Postaward Audit of Commercial Acquisition of Multiple Products Contract: Hytorc of Virginia,
                    Inc., Contract Number GS-06F-78361 for the Period November 1, 1994 Through December 18,
                    1996

07/31/97   A71820   Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract Number
                    GS06P94GY C003 7

07/31/97   A72467   Limited Scope Pre award Audit of Proposed Overhead and Direct Labor Rates:              Peterson
                    Construction Company, Inc., Contract Number GS-08P-96-JFC-0004

08/05/97   A73617   Refund From The Committee For Purchase From People Who Are Blind Or Severely Disabled,
                    Agreement Number GS-02F -61511

08/07/97   A71846   Preaward Audit of Cost or Pricing Data:            Boese Electric,   Inc.,   Contract Number
                    GS06P94GYC0076(N)

08/14/97   A73022   Preaward Audit of Change Order Proposal: Turner Construction Company, Subcontractor to BPT
                    Metroview Assocs., L.P., Contract Number GS-1IP91AQC0060

08/19/97   A71844   Preaward Audit of Cost or Pricing Data: Eliason & Knuth of Kansas City, Inc., Contract Number
                    GS06P94GYC0076(N)

08/22/97   A70646   Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                    CUC-0070(N)

08/28/97   A72463   Limited Scope Pre award Audit of Proposed Overhead and Direct Labor Rates: Gruen Associates,
                    Solicitation Number GS-09P-95-KTC-0029


                                                                                       Office of Inspector General 53
   Appendix III Audit Reports over 12 Months Old with Final Action Pending
                        m




Date of          Audit
Report           Number                                              Title


08/29/97         A70645        Preaward Audit of Cost or Pricing Data: Lehrer McGovern Bovis, Inc., Contract Number GS-02P-
                               92-CUC-0028(N)

09/17/97         A73025        Preaward Audit of Sole Source Contract: Gilford Technology Corporation, Contract Number GS-
                               IlP97MKC0037

09/18/97         A72489        Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Store, Matakovich
                               & Wolfberg, Solicitation Number GS-09P-96-KTD-0011

09/22/97         A70649        Pre award Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to Beacon/Procon,
                               Joint Venture, Contract Numher GS-02P-94-CUC-0070(N)

09/24/97          A71526       Price Adjustments on MUltiple Award Schedule Contract: Domore Corporation, Contract Number
                               GS-00F-5232A for the Interim Period December 1, 1997 Through January 31,2001

09/29/97         A71543        Preaward Audit of Multiple Award Schedule Contract: Advance Machine Company, Solicitation
                               Number 7FXG-Z3-93-7927-B




54 Semiannual Report to The Congress
   Appendix III Audit Reports over 12 Months Old with Final Action Pending
                m




Date of    Audit                                                                                 Projected Final
Report     Number                                                                                 Action Date


Internal Audits
03125/96   A53321   FSS' Stock Program Management Information Systems Need to be                       04/15/99
                    Improved to Provide More Accurate and Reliable Information

03127/96   A43005   Audit of GSA's Aircraft Management Program                                         01/15/99

03/27/96   A62424   Audit of Criminal History Background Checks for Child Care                         10/15/98
                    Center Employees

08127/96   A62448   Audit of Background Checks on Contractor Personnel                                 10/15/98

09/30/96   A61835   Audit of Implementation of PBS's Information Systems Strategy                      10/15/98

12/02/96   A63019   Audit of the PAPCAP Price Adjustments                                              10/15/98

01/13/97   A62503   Audit of Procurement Actions, Central California Field Office,                     01115/99
                    Pacific Rim Region

02/04/97   A61537   Audit of Postaward Lease Administration: U.S. Bankruptcy Court,                    12/15/98
                    Columbus, Ohio, Lease Number GS-05B-15610

03/11197   A60936   Audit of the General Services Administration's Regional                            11115/98
                    Telecommuting Center Initiatives

03126/97   A61247   Review of the Public Buildings Service Debarment Program                           01/15/99

03/28/97   A71503   Review of GSA's Affirmative Procurement Program                                    01/15/99

06/10/97   A62709   Arthur Andersen LLP, Fiscal Year 1996 Management Letter                            01/15/99
                    Comments and Suggestions for Consideration

07/11/97   A60645   Audit of the Federal Protective Service's Criminal Investigation                   12/15/98
                    Program

09/17/97   A62504   Audit of Lease Tax Rate Adjustments in California, Pacific Rim                     12/15/98
                    Region

09124/97   A71502   Audit of Federal Acquisition Services for Technology Program                       10/15/98

09/25/97   A73302   Inventories Can Be Reduced by Using More Accurate and                              03/15/99
                    Reliable Data on Economic Order Quantities and Safety Stock

09126/97   A70627   Audit of Real Estate Tax and Janitorial Service Contract                          11115//98
                    Payments




                                                                                       Office of Inspector General 55
                                       Appendix IV - Delinquent Debts




The GSA Office of the Chief Financial Oftlcer pro~ided the following information.

GSA Efforts to Improve Debt                                       • The Southwest Finance Center has taken aggressive and
                                                                    timely action to identify and effect administrative offsets of
Collection                                                          $149,073 in this period. Two uncollectible debts totaling
During the period April 1, 1998 through September 30, 1998,         $56,648 were written off during this period.
GSA efforts to improve debt collection and reduce the amount
of debt written off as uncollectible focused on upgrading the     Other significant activities in this time period include:
collection function and enhancing debt management. These
activities included the following:                                • The Financial Information Control Division works with any
                                                                    debtor with a financial hardship by accepting a Promissory
• In compliance with the Debt Collection Improvement Act of         Note for installment payments, if applicable. This saves
  1996, the GSA Heartland Region transmits delinquent               GSA, Treasury, and the Department of Justice both money
  claims, each month, to the U.S. Department of the Treasury        and time from pursuing an account that cannot or would not
  (Treasury) Financial Management Service (FMS) for collec-         otherwise be paid.
  tion cross-servicing. From April 1 to September 30, 1998,
  the region sent 46 delinquent non-Federal claims totaling       • Quarterly reports are submitted to the contracting offices
  $75,541.24 to FMS and received payments totaling                  listing all disputed claims and delinquent outlease and con-
  $365,733.18 for 414 non-Federal claims forwarded to FMS           cession accounts.
  since April 1, 1997.
                                                                  • Quarterly follow-up with the Office of the Chief Financial
• The GSA Heartland Region continues to collect non-Federal         Officer, Office of the Controller are performed for audit-
  claims using pre-authorized debits (PAD). From April 1 to         related items.
  September 30, 1998 the region used four PAD's to collect
  $1,425.00. We have continued to refer delinquent non-           • Services and Staff Offices are provided assistance on the
  Federal debts to Treasury for cross-servicing collection          correct procedures for processing claims and collections.
  activities, as provided under the Debt Collection
  Improvement Act of 1996.                                        • Representatives are sent to testify or negotiate in the judicial
                                                                    process as necessary.


Non-Federal Accounts Receivable

                                                          As of                       As of
                                                      APri!] 1 1~2fL_~~    ~~tell!l>e!,~O, 12~~_               Ditlerence

  Total Amounts Due GSA                                 $23,992,730                 $24,221,013                 $228,283

   Amount Delinquent                                    $16,104,809                 $12,375,303              ($3,729,506)

  Total Amount Written
  Off as Uncollectible
  Between 4/1/98 and
  9/30/98                                                  $183,381




56 Semiannual Report to The Congress
                               Appendix V - Reporting Requirements




The table below cross-references the reporting requirements       to the 1980 Supplemental Appropriations and Rescission Bill
prescribed by the Inspector General Act of 1978, as amended,      and the National Defense Authorization Act is also cross-
to the specific pages where they are addressed. The information   referenced to the appropriate page of the report.
requested by the Congress in Senate Report No. 96-829 relative




   Requirement                                         Page

   Inspector General Act

      Section 4(a)(2) - Review of Legislation and Regulations ............................................. 25

      Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ......................................2,15

      Section 5(a)(2) - Recommendations With Respect to Significant
       Problems, Abuses, and Deficiencies ..........................................................2,15

      Section 5(a)(3) - Prior Recommendations Not Yet Implemented ........................................ 35

      Section 5(a)(4) - Matters Referred to Prosecutive Authorities.......................................... 30

      Sections 5(a)(5) and 6(b)(2) - Summary ofInstances Where
       Information Was Refused ..................................................................None

      Section 5(a)(6) - List of Audit Reports. . ......................................................... 38

      Section 5(a)(7) - Summary of Each Particularly Significant Report....................................2,15

      Section 5(a)(8) - Statistical Tables on Management Decisions
       on Questioned Costs ....................................................................... 29

      Section 5(a)(9) - Statistical Tables on Management Decisions
       on Recommendations That Funds Be Put to Better Use ............................................ .28

      Section 5(a)(1O) - Summary of Each Audit Report Over 6 Months Old for Which No Management Decision
       Has Been Made ......................................................................... None

      Section 5(a)(1l) - Description and Explanation for Any Significant
       Revised Management Decision ............................................................. None

      Section 5(a)(12) - Information on Any Significant Management
       Decisions With Which the Inspector General Disagrees. . ......................................... None

  Senate Report No. 96-829

     Resolution of Audits ........................................................................ 27

     Delinquent Debts ........................................................................... 56

  National Defense Authorization Act .............................................................. 50




                                                                                                 Office of Inspector General 57
                                       Notes




58 Semiannual Report to The Congress
                         I




                                      Ii



     IG,
 Washington,


u.s. General Services Administraion
Office of the Inspector General
;
